<html>
<title> - ARE AGENCIES PLAYING IT SAFE AND SECURE: AN EXAMINATION OF WORKER PROTECTIONS PRE- AND POST-INJURY</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




 
   ARE AGENCIES PLAYING IT SAFE AND SECURE: AN EXAMINATION OF WORKER 
                    PROTECTIONS PRE- AND POST-INJURY

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON FEDERAL WORKFORCE,
                    POSTAL SERVICE, AND THE DISTRICT
                              OF COLUMBIA

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 21, 2010

                               __________

                           Serial No. 111-112

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform



                  U.S. GOVERNMENT PRINTING OFFICE
64-924                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8becfbe4cbe8fef8ffe3eee7fba5e8e4e6a5">[email&#160;protected]</a>  

              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      DARRELL E. ISSA, California
CAROLYN B. MALONEY, New York         DAN BURTON, Indiana
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             JOHN J. DUNCAN, Jr., Tennessee
JOHN F. TIERNEY, Massachusetts       MICHAEL R. TURNER, Ohio
WM. LACY CLAY, Missouri              LYNN A. WESTMORELAND, Georgia
DIANE E. WATSON, California          PATRICK T. McHENRY, North Carolina
STEPHEN F. LYNCH, Massachusetts      BRIAN P. BILBRAY, California
JIM COOPER, Tennessee                JIM JORDAN, Ohio
GERALD E. CONNOLLY, Virginia         JEFF FLAKE, Arizona
MIKE QUIGLEY, Illinois               JEFF FORTENBERRY, Nebraska
MARCY KAPTUR, Ohio                   JASON CHAFFETZ, Utah
ELEANOR HOLMES NORTON, District of   AARON SCHOCK, Illinois
    Columbia                         BLAINE LUETKEMEYER, Missouri
PATRICK J. KENNEDY, Rhode Island     ANH ``JOSEPH'' CAO, Louisiana
DANNY K. DAVIS, Illinois             BILL SHUSTER, Pennsylvania
CHRIS VAN HOLLEN, Maryland
HENRY CUELLAR, Texas
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
PETER WELCH, Vermont
BILL FOSTER, Illinois
JACKIE SPEIER, California
STEVE DRIEHAUS, Ohio
JUDY CHU, California

                      Ron Stroman, Staff Director
                Michael McCarthy, Deputy Staff Director
                      Carla Hultberg, Chief Clerk
                  Larry Brady, Minority Staff Director

Subcommittee on Federal Workforce, Postal Service, and the District of 
                                Columbia

               STEPHEN F. LYNCH, Massachusetts, Chairman
ELEANOR HOLMES NORTON, District of   JASON CHAFFETZ, Utah
    Columbia                         BRIAN P. BILBRAY, California
DANNY K. DAVIS, Illinois             ANH ``JOSEPH'' CAO, Louisiana
ELIJAH E. CUMMINGS, Maryland         ------ ------
DENNIS J. KUCINICH, Ohio
WM. LACY CLAY, Missouri
GERALD E. CONNOLLY, Virginia
                     William Miles, Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 21, 2010....................................     1
Statement of:
    Adler, Jon, national president, Federal Law Enforcement 
      Officers Association; James Johnson, 16th district vice 
      president, International Association of Fire Fighters; 
      Maureen Gilman, director of legislation, National Treasury 
      Employees Union; and Milagro Rodriguez, labor relations 
      specialist for safety and health, American Federation of 
      Government Employees, AFL-CIO..............................    49
        Adler, Jon...............................................    49
        Gilman, Maureen..........................................    65
        Johnson, James...........................................    56
        Rodriguez, Milagro.......................................    75
    Howard, John, M.D., Director, National Institute for 
      Occupational Safety and Health, Centers for Disease Control 
      and Prevention, U.S. Department of Health and Human 
      Services; Shelby Hallmark, Director, Office of Workers' 
      Compensation Programs, U.S. Department of Labor; and Jill 
      M. Segraves, Director, Occupational Safety, Health & 
      Environment, Transportation Security Administration, U.S. 
      Department of Homeland Security............................     4
        Hallmark, Shelby.........................................    12
        Howard, John.............................................     4
        Segraves, Jill M.........................................    26
Letters, statements, etc., submitted for the record by:
    Adler, Jon, national president, Federal Law Enforcement 
      Officers Association:
        Followup questions and responses.........................    98
        Prepared statement of....................................    53
    Gilman, Maureen, director of legislation, National Treasury 
      Employees Union, prepared statement of.....................    67
    Hallmark, Shelby, Director, Office of Workers' Compensation 
      Programs, U.S. Department of Labor, prepared statement of..    14
    Howard, John, M.D., Director, National Institute for 
      Occupational Safety and Health, Centers for Disease Control 
      and Prevention, U.S. Department of Health and Human 
      Services, prepared statement of............................     6
    Johnson, James, 16th district vice president, International 
      Association of Fire Fighters, prepared statement of........    58
    Lynch, Hon. Stephen F., a Representative in Congress from the 
      State of Massachusetts, prepared statement of..............     3
    Rodriguez, Milagro, labor relations specialist for safety and 
      health, American Federation of Government Employees, AFL-
      CIO, prepared statement of.................................    77
    Segraves, Jill M., Director, Occupational Safety, Health & 
      Environment, Transportation Security Administration, U.S. 
      Department of Homeland Security, prepared statement of.....    28


   ARE AGENCIES PLAYING IT SAFE AND SECURE: AN EXAMINATION OF WORKER 
                    PROTECTIONS PRE- AND POST-INJURY

                              ----------                              


                        WEDNESDAY, JULY 21, 2010

                  House of Representatives,
Subcommittee on Federal Workforce, Postal Service, 
                      and the District of Columbia,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 3:38 p.m., in 
room 2154, Rayburn House Office Building, Hon. Stephen F. Lynch 
(chairman of the subcommittee) presiding.
    Present: Representatives Lynch and Norton.
    Staff present: Jill Crissman, professional staff; Ian 
Kapuza and Rohan Siddhanti, interns; William Miles, staff 
director; Rob Sidman, detailee; Dan Zeidman, deputy clerk/
legislative assistant; Adam Fromm, minority chief clerk and 
Member liaison; Justin LoFranco, minority press assistant and 
clerk; Howard Denis, minority senior counsel; Marvin Kaplan, 
minority counsel; and James Robertson, minority professional 
staff member.
    Ms. Norton [presiding]. The Subcommittee on Federal 
Workforce, Post Office, and the District of Columbia hearing 
will come to order and will proceed. I would like to welcome 
the witnesses in attendance.
    The purpose of today's hearing is to address the safety 
standards and practices employed by Federal agencies to ensure 
that employees are not exposed to excessive amounts of 
carcinogens and ionizing radiation and to reduce workplace 
injuries and accidents.
    Part of our role in the subcommittee is to ensure that men 
and women who serve our country are safe and healthy. For this 
reason, we have convened today's oversight hearing to receive 
an update about what exactly Federal agencies are doing to 
reduce and prevent on-the-job injuries and disease contraction 
and to discuss the care and compensation currently available to 
injured Federal employees.
    Among other duties, Federal employees fight fires, enforce 
our laws, defend our Nation, protect our airways, and protect 
our national parks. In these roles, Federal workers regularly 
face a variety of health hazards. Notably, Transportation 
Security Administration baggage screeners and firefighters have 
raised concerns over exposure to carcinogens and ionizing 
radiation.
    A 2008 Health Hazard Evaluation Report by the National 
Institute for Occupational Safety found that radiation doses 
for certain baggage screeners exceeded the maximum dose for the 
public and reported that some Explosive Detective System 
machines emitted levels of radiation that exceeded regulatory 
limits. The report also found that some x-ray machines were not 
well maintained and noted unsafe work practices among 
Transportation Security Administration employees.
    In addition to these concerns, the National Institute for 
Occupational Safety also reports that heart disease, lung 
disease, cancer, and infectious disease are among the leading 
causes of death and disability for firefighters because of the 
hazardous and varied environments they are regularly exposed 
to.
    Given these serious issues, we are very concerned in using 
today's hearing as a learning opportunity with regard to the 
safety standards and practices employed by Federal agencies to 
ensure that Federal employees are not exposed to excessive 
amounts of carcinogens and ionizing radiation.
    We will also use today's proceedings to review ongoing 
efforts to reduce workplace injuries and accidents. Notably, 
this past Monday, the President unveiled the Protecting Our 
Workers and Ensuring Reemployment initiative, which encourages 
agencies to collect data on the causes and consequences of 
workplace illness and injury as well as to prioritize effective 
safety and health management programs.
    In addition, we look forward to discussing how well the 
Department of Labor's Office of Workers' Compensation Programs 
and the Federal Employees' Compensation Act are meeting the 
needs of injured workers in high-risk occupations. In fiscal 
year 2009, Federal employees, excluding postal workers, filed 
more than 79,000 new claims and received more than $1.6 billion 
in workers' compensation payments. Federal employees in a 
variety of occupations have contacted the subcommittee to share 
concerns with the Office of Workers' Compensation program, and 
we need to be confident that Federal workers' claims are 
addressed in a reasonable timeframe.
    It is our hope that the testimony and feedback we receive 
from today's witnesses can provide the subcommittee with a 
better understanding of what is being done to ensure that the 
highest safety standards are in place for Federal employees and 
to make sure that when these workers are injured they are 
properly treated.
    Again, we thank each of you for being with us this 
afternoon and look forward to your participation.
    [The prepared statement of Hon. Stephen F. Lynch follows:]

    [GRAPHIC] [TIFF OMITTED] T4924.001
    
    Ms. Norton. The committee will now hear testimony from 
today's witnesses.
    It is the committee policy that all witnesses are sworn in. 
We ask you to rise and raise your right hands.
    [Witnesses sworn.]
    Ms. Norton. Thank you, and be seated.
    Your entire statement is already included in the hearing 
record. The green light indicates that you have 5 minutes to 
summarize your statement, the yellow light means that you have 
1 minute remaining to complete your statement, and the red 
light means you know what.
    Please proceed to summarize your statements; and what I am 
going to do is to introduce you before you speak, rather than 
all at one time.
    I am going to ask first Dr. John Howard to speak. He is 
Director of the National Institute for Occupational Safety and 
Health in the U.S. Department of Health and Human Services, 
also serves as coordinator of the Department's World Trade 
Center Health program. Prior to his appointment as Director of 
NIOSH in 2002, Dr. Howard served as chief of the Division of 
Occupational Safety and Health in the California Labor and 
Workforce Development Agency from 1991 to 2002. Dr. Howard.

 STATEMENTS OF JOHN HOWARD, M.D., DIRECTOR, NATIONAL INSTITUTE 
FOR OCCUPATIONAL SAFETY AND HEALTH, CENTERS FOR DISEASE CONTROL 
 AND PREVENTION, U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES; 
  SHELBY HALLMARK, DIRECTOR, OFFICE OF WORKERS' COMPENSATION 
   PROGRAMS, U.S. DEPARTMENT OF LABOR; AND JILL M. SEGRAVES, 
     DIRECTOR, OCCUPATIONAL SAFETY, HEALTH & ENVIRONMENT, 
  TRANSPORTATION SECURITY ADMINISTRATION, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

                 STATEMENT OF JOHN HOWARD, M.D.

    Dr. Howard. Thank you very much, Congresswoman Norton.
    I am pleased to be here to provide an overview about the 
efforts by the National Institute for Occupational Safety and 
Health to prevent work-related injuries and illnesses to public 
safety workers like police officers, emergency medical 
technicians, and firefighters, and also to the Transportation 
Security Administration employees.
    Public safety workers are called upon to respond, as you 
said, to various emergencies involving fires, traumatic 
injuries, criminal acts; and, in some cases, they enter 
uncontrolled environments to rescue potential victims. These 
duties often expose them to biological, physical, chemical, 
psychosocial hazards that can increase their risk of work-
related injuries, illnesses, and fatalities.
    NIOSH conducts a number of research projects related to 
public safety workers through an emphasis program and public 
safety services sector. NIOSH's research findings and 
recommendations are implemented by employers throughout the 
United States and even by international bodies in terms of 
standards setting.
    NIOSH also develops recommendations to safeguard the health 
and safety of workers through our Health Hazard Evaluation 
[HHE], program. In response to requests from employers, 
employees, and their representatives, the HHE program examines 
workplace conditions to determine if workers are exposed to 
hazardous materials or harmful conditions. During these 
evaluations, the HHE team will assess potential exposures by 
measurement observations, surveying employees about their 
health, and reviewing health and safety policies and programs. 
Based on this information, NIOSH investigators make 
recommendations at how best to improve workers' safety and 
health.
    Since 2003, the HHE program has received 218 requests to 
investigate potential occupational hazards among public safety 
workers and among TSA workers. These requests have concerned 
indoor air quality, heat, noise, infectious agents, lead, 
carbon monoxide, musculoskeletal issues, diesel exhaust, 
radiation exposure.
    Between 2002 and 2003, NIOSH received three HHE requests 
from TSA baggage screening employees at the Cincinnati, 
Honolulu, and Baltimore airports, which focused on potential 
exposures to diesel, exhaust, dust, noise, hazardous items 
found in baggage, and to x-rays from baggage screening 
machines.
    In 2003, NIOSH received also a separate request from TSA 
management to determine the levels of radiation emissions from 
various TSA screening equipment and to determine whether 
routine use of dosimetry is warranted.
    NIOSH responded by conducting an extensive field 
evaluation. The objectives of the evaluation were to assess 
work practices, procedures, and training and also to provide 
criteria for future actions.
    NIOSH observed the work practices and procedures followed 
by baggage screeners and conducted tests of around 281 
screening machines to detect x-ray emissions. NIOSH found that 
nearly 90 percent of the TSA baggage screeners received no 
measurable occupational x-ray radiation exposure, none of the 
participants' doses exceeded OSHA's permissible exposure limit 
of 1,250 milligrams per calendar year quarter, nor did measured 
doses exceed 25 percent of the OSHA quarterly limit, which 
would have required routine employee monitoring.
    However, there were a few employees that had small measures 
of exposure. NIOSH attributed the radiation exposure to 
improper maintenance of machines, to equipment design 
limitations, insufficient training, and improper work 
practices. NIOSH made several recommendations to address each 
of these issues, including conducting monthly or quarterly 
dosimetry targeted at specific airports for a year to further 
evaluate the radiation doses obtained in the NIOSH evaluation.
    NIOSH also encouraged employees to notify their supervisors 
about equipment malfunctions, to use proper equipment to clear 
bag jams in screening machines, and to avoid overriding the 
machine safety features.
    As new technologies and products are brought into the 
workplace, NIOSH will continue to assess their impact on work-
related injuries, illness, and disability through our research 
and prevention strategies.
    Thank you very much, And I am pleased to answer any of your 
questions.
    [The prepared statement of Dr. Howard follows:]

    [GRAPHIC] [TIFF OMITTED] T4924.002
    
    [GRAPHIC] [TIFF OMITTED] T4924.003
    
    [GRAPHIC] [TIFF OMITTED] T4924.004
    
    [GRAPHIC] [TIFF OMITTED] T4924.005
    
    [GRAPHIC] [TIFF OMITTED] T4924.006
    
    [GRAPHIC] [TIFF OMITTED] T4924.007
    
    Ms. Norton. Thank you, Dr. Howard.
    Shelby Hallmark has served as Director of the Office of 
Workers' Compensation Programs at the U.S. Department of Labor 
since 2001. From 1990 to 2001, he was the Office of Workers 
Compensation Programs' Deputy Director with stints as Acting 
Director. He has served in numerous capacities within the 
Department of Labor since 1980. Mr. Hallmark.

                  STATEMENT OF SHELBY HALLMARK

    Mr. Hallmark. Thank you, Congresswoman Norton.
    I appreciate the opportunity to discuss OWCP's role in 
providing benefits under the Federal Employees' Compensation 
Act [FECA], to injured Federal workers, including those in 
high-risk occupations.
    The Secretary of Labor is fully committed to ensuring that 
all injured workers receive the care and compensation they 
deserve through the services that we provide. We are aware that 
some of our fellow Feds are subject to unique risks, and we are 
proud that our program provides comprehensive support for those 
who need it.
    Under the FECA, we provide compensation for wage loss, 
medical care for on-the-job illnesses and injuries. We 
facilitate return to work upon recovery, and we pay benefits 
for survivors. FECA covers 2.7 million Federal and postal 
workers around the world and some others. It may be the largest 
self-insured workers compensation system in the world. It is 
also perhaps the most generous workers compensation system in 
the world, paying 75 percent of the injured worker's date of 
injury gross salary tax-free.
    In addition, FECA does not arbitrarily limit the duration 
during which benefits may be paid, as some State systems do. It 
has no meaningful maximum benefit cap, whereas most States 
limit compensation to an average weekly wage or a figure of 
that nature. And its eligible rules are liberal. For example, 
there are no arbitrary exclusions for particular disease 
conditions, and the statute of limitations rules are claimant 
favorable.
    Perhaps most importantly, FECA is a nonadversarial system, 
meaning that the employing agency, which ultimately covers the 
cost of benefits, has no standing to appeal OWCP's decisions. 
Only the worker is a party to the claim, and OWCP examiners 
make objective decisions based on the case law and the facts in 
the individual case, with no motive to limit costs.
    In the year ending June 30, 2010, the program paid out 
nearly $2.9 billion in benefits. We accepted roughly 86 percent 
of all cases filed and rendered a decision within our target 
timeframes in the overwhelming majority of cases.
    But there are some cases which are difficult for the 
claimant and for OWCP to adjudicate. Traumatic cases of slip-
and-fall and accident, for example, are approved more than 92 
percent of the time and usually within a few days or weeks, but 
occupational disease claims receive an initial approval only 
about 52 percent of the time and may take a few months to 
decide. A pulmonary condition, for example, can be much more 
difficult to ascribe to specific causation factors than a 
traumatic incident.
    If evidence submitted with an initial claim is insufficient 
to accept that case, the claims examiner will explain what is 
needed to establish the case and may assist the claimant in 
gathering medical evidence directly. Roughly one-third of those 
occupational disease cases who are turned down result in the 
claimant returning with more information, usually with more 
medical evidence, and being successful in perfecting their 
claim. But, fundamentally, these outcomes reflect the fact that 
occupational disease cases involve murkier situations where the 
cause of the illness may be ambiguous.
    OWCP strives to get the right result in every case, but we 
recognize that no system is perfect, and we continue to work to 
improve our processes so that each claimant receives a fair, 
accurate, and understandable decision, even if it is not the 
outcome he or she might have preferred.
    Providing more information and access to claimants, 
employing agencies, and medical providers has been a high 
priority. We already have case status information available on 
line. In 2011, we will launch an interactive Web-based system 
that will, for the first time, allow claimants to file their 
claim forms directly with OWCP and allow them and their 
agencies and their doctors to upload evidentiary documents 
directly into the OWCP case file, thus speeding the process. 
During 2011, we will also implement a greatly enhanced 
telephone system that will allow our staff to communicate more 
effectively with workers and deliver improved services.
    I am very excited about one other major project, the one 
that you mentioned, Chairwoman Norton, the President's POWER 
initiative, Protecting Our Workers and Ensuring Reemployment. 
He announced that on Monday. He directed the agencies to work 
to make Federal workplaces safer and to improve FECA case 
outcomes.
    OWCP and the Occupational Safety and Health Administration 
at Labor will work together with all the Federal agencies to 
reduce the incidents and severity of on-the-job injuries, speed 
claim filing, and help people get back to work more 
effectively. Establishing those kinds of goals, measuring them, 
and analyzing results has been shown to yield positive change, 
and we believe POWER will save lives, dollars, and Federal 
productivity over the next 4 years.
    I will be pleased to answer any questions you have. Thank 
you very much.
    [The prepared statement of Mr. Hallmark follows:]

    [GRAPHIC] [TIFF OMITTED] T4924.008
    
    [GRAPHIC] [TIFF OMITTED] T4924.009
    
    [GRAPHIC] [TIFF OMITTED] T4924.010
    
    [GRAPHIC] [TIFF OMITTED] T4924.011
    
    [GRAPHIC] [TIFF OMITTED] T4924.012
    
    [GRAPHIC] [TIFF OMITTED] T4924.013
    
    [GRAPHIC] [TIFF OMITTED] T4924.014
    
    [GRAPHIC] [TIFF OMITTED] T4924.015
    
    [GRAPHIC] [TIFF OMITTED] T4924.016
    
    [GRAPHIC] [TIFF OMITTED] T4924.017
    
    [GRAPHIC] [TIFF OMITTED] T4924.018
    
    [GRAPHIC] [TIFF OMITTED] T4924.019
    
    Ms. Norton. Thank you, Mr. Hallmark.
    Jill Segraves is the Director of Occupational Safety, 
Health & Environment as well as the Radiation Safety Program 
Manager for the Transportation Security Administration. She 
began her occupational safety career 26 years ago with the 
Department of Army and has worked in a variety of positions in 
both the Federal Government and the private sector. Ms. 
Segraves.

                 STATEMENT OF JILL M. SEGRAVES

    Ms. Segraves. Thank you, Congresswoman Norton.
    I am pleased to be here today and thank you for the 
opportunity to discuss TSA's occupational safety and health 
program and the key initiatives we have implemented to promote 
a safe and healthful work environment for our employees who 
occupy the front line in protecting our homeland and to address 
the recommendations outlined in the National Institute for 
Occupational Safety and Health [NIOSH], study evaluation of 
radiation exposure to TSA baggage screeners.
    I am a certified safety professional with over 26 years of 
occupational safety and health, as you mentioned, and have been 
working with the TSA since January 2003, was part of a team at 
the startup of the Occupational Safety & Health program.
    The Occupational Safety, Health & Environment program is 
TSA's major program office responsible for all safety and 
environmental activities, including policy development, program 
support, and technical assistance to airports, field units, and 
TSA headquarters personnel.
    In March 2003, TSA submitted a Health Hazard Evaluation 
request to the National Institute for Occupational Safety and 
Health to perform an independent study to determine the levels 
of radiation emissions from the various TSA screening equipment 
and whether routine use of dosimetry was warranted. This 
request was based on employee concerns about exposure to x-rays 
from the carry-on and checked baggage screening systems.
    Over the course of the following months, TSA coordinated 
closely with NIOSH investigators to discuss their findings and 
implement recommendations for safe work practices, radiation 
safety training, and equipment design and maintenance. A key 
finding was that none of the participants' radiation doses 
exceeded the Occupational Safety Health Administration's 
criteria above which employee dosimetry would be required. 
However, NIOSH recommended TSA perform an additional radiation 
dosimetry study for at least a year to evaluate the differences 
observed between airports and to address deployment of new 
systems.
    In April 2009, the NIOSH recommended radiation dosimetry 
study commenced at six airports. Preliminary results reveal 
that TSOs' exposures are well below the criteria that would 
require TSOs to wear personal dosimeters.
    Today, all of our procurement specifications and 
engineering reviews of new screening technology consider the 
safety of our employees. Technology is only deployed once we 
have certified that it is safe. We work with organizations such 
as the Food and Drug Administration, the National Institute for 
Occupational Safety and Health, Federal Occupational Health, 
the National Institute for Standards and Technology, and the 
U.S. Army Public Health Command for technical reviews and 
independent evaluations.
    TSA's occupational safety professionals routinely visit our 
Nation's airports to provide support and address safety 
concerns. Workforce training to enhance both the safety of the 
employees and the security of the traveling public has taken 
center stage in building a mature, skilled, and professional 
work force.
    In addition to formal training programs, employee outreach 
has expanded through the use of social media and online 
communications, allowing us to quickly transmit information on 
a variety of issues, including worker safety, to our employees 
and to receive feedback from our employees through TSA's 
IdeaFactory, Blog Central, and the National Advisory Council.
    TSA not only maintains a high level of safety for our work 
force but continues to focus on innovative ways to raise the 
bar. We are working to create and sustain a culture of safety 
at TSA where employees feel a sense of responsibility for their 
own safety and that of their colleagues and the public.
    The National Advisory Council, with the support of my 
office, has launched ``I've Got Your Back,'' a campaign to 
promote safety awareness. Working together, it is our goal to 
provide the safest work environment possible to enable TSA 
employees to focus on their mission of keeping the American 
traveling public safety.
    Our safety and health initiatives, training programs, and 
internal and external partnerships have fostered a safer 
working environment for TSA employees. This is demonstrated 
through Federal performance metrics for safety and workers' 
compensation programs, the total case rates for injuries and 
illnesses, and those cases that result in lost workdays 
reported by TSO in this fiscal year, approximately 80 percent 
less than the rates reported in fiscal year 2005. These 
improvements have led to workers' compensation cost savings of 
more than 25 percent over the same time period.
    I have been privileged to serve as Director of TSA's Office 
of Occupational Safety, Health & Environment and to develop a 
comprehensive safety and health program. TSA recognizes that 
its strength as an organization depends upon the safety of its 
work force and that its mission as a risk-based, intelligence-
driven agency is measured not only by its protection of the 
traveling public but also by its commitment to protecting the 
safety and health of its workers.
    I thank you for this opportunity to appear before you 
today, and I look forward to answering your questions.
    [The prepared statement of Ms. Segraves follows:]

    [GRAPHIC] [TIFF OMITTED] T4924.020
    
    [GRAPHIC] [TIFF OMITTED] T4924.021
    
    [GRAPHIC] [TIFF OMITTED] T4924.022
    
    [GRAPHIC] [TIFF OMITTED] T4924.023
    
    [GRAPHIC] [TIFF OMITTED] T4924.024
    
    Ms. Norton. Thank you, Ms. Segraves.
    Let me begin with Dr. Howard.
    Dr. Howard, I was interested in the part of your testimony 
involving observers who recommended that six machines be taken 
off line because of potential exposure. I wonder if these 
employees were informed of this potential exposure at the time 
where they advised to see a physician? What disposition was 
made of the employees now that we are dealing with the 
machines?
    Dr. Howard. The overall study involved about 850 workers, 
and it wasn't an entirely negative study. There were two 
workers that had doses that came close, actually exceeded the 
monitoring threshold that, for instance, the NRC has for a 
routine dosimetry program. In 13 of the 854 workers, they 
exceeded the monitoring threshold for DOE. So our 
recommendation was for TSA--and there is a lot of limitations 
to our study. First, these were volunteers and several other 
things. So we asked TSA----
    Ms. Norton. Who were volunteers, Dr. Howard?
    Dr. Howard. These were study subjects; and we asked them, 
would you like to participate in the study?
    So then our recommendation was, given those limitations----
    Ms. Norton. So why was that a limitation?
    Dr. Howard. It was a limitation because we didn't have 
everyone who was exposed in the study.
    Ms. Norton. So it is not a scientific----
    Dr. Howard. Not a totally scientific. More like a medical 
investigation to look at a volunteer study. It was--we didn't 
enroll everyone in it. So we were somewhat concerned about the 
representativeness of the entire population. So the major 
recommendation we had is for TSA to take a year and do a more 
thorough study so that we would be able to establish what 
exposures were actually occurring.
    So in response to your specific question, those individuals 
that were part of the study subjects that had elevations above 
zero--and there were very few of those. They didn't get to the 
level where we would have recommended they see a physician. 
They were still very low levels and, in fact, below the level 
in most cases where we would even have recommended a dosimetry 
program. So we wouldn't have recommended medical evaluation.
    Ms. Norton. So you found no exposures that were 
particularly harmful.
    Dr. Howard. Not particularly harmful. But we were 
concerned, because the study itself lasted only a short period 
of time, and most of the recommendations are a quarter of a 
year or a calendar year.
    Ms. Norton. What is to keep a study, a random study from 
being done?
    Dr. Howard. I'm sorry?
    Ms. Norton. What is to keep a normal kind of study from 
being done? Why do you have to go and ask for volunteers?
    Dr. Howard. Well, our particular program, the Health Hazard 
Evaluation program, is not a research study. It is in the 
characterization of a public health surveillance study.
    Ms. Norton. I don't understand that, Dr. Howard.
    Dr. Howard. There----
    Ms. Norton. If it is going to be valuable to you or to us 
in evaluating what should be done, why not do it the way every 
other scientific study is done? Would there be any reluctance 
of people to come forward?
    Dr. Howard. If I could explain, it is a requested type of 
evaluation. So it is not a research study, per se. It is a 
requested evaluation, a quick ``Tell us what the problem is and 
so we can better define it.'' So it is not a research study in 
the way that you are thinking of it. It is an evaluation 
program. So it is more like a----
    Ms. Norton. I hear you, Dr. Howard. I don't know how to 
evaluate it, though. If we have a bunch of volunteers not 
randomly selected, if we don't have the usual control group, I 
mean, it would be hard for me to see even the value of such a 
study, frankly.
    Dr. Howard. Well, the value is we found some workers whose 
exposure came close to that requirement by a number of Federal 
agencies that say you have to have a routine dosimetry program. 
And so our recommendation was: TSA, you need to follow this up 
and do a more thorough study with----
    Ms. Norton. Although those were the ones you saw, the 
volunteers. Who knows if there had been young people who were 
never exposed to anything because they are just not old enough 
or haven't been there long enough. You found nothing that you 
would ask even your own family to go see a physician. And so 
now all you can tell them is, why don't you do a real study? 
And I don't know why they didn't do a real study to begin with, 
especially since there was a concern that had been raised.
    Dr. Howard. It is a program that is designed to quickly go 
out and identify conditions in order to followup on them.
    Ms. Norton. I hear you, Dr. Howard. If there had not been 
concern raised and--it seems to me, why take all the time to do 
studies where concerns have been raised? I hear you. If I were 
working in the agency, I must say, as one potentially exposed 
to such a harm, I would take no comfort from such an evaluation 
and can only wonder why the agency didn't want a deeper study.
    Dr. Howard. And we're certainly happy to do that.
    Ms. Norton. I understand that. You are the messenger. The 
real question goes to the agency: What are you afraid of?
    You know, if you want to know, then know. Don't dance 
around the issue. I tell you, this is how people get liability, 
speaking now as a lawyer. How you get liability is you should 
have--you had enough sense of concern so that you should have 
done a real live study when you should have done it and you 
didn't, and now I have some exposure, me, the TSA employee. 
That's what you get when you don't act, you don't--the agency, 
of course I'm speaking--does not act proactively.
    Mr. Hallmark, as you are aware, we have just done--an 
historic health reform bill passed, something that the country 
has needed for a hundred years. The subcommittee has heard from 
employees--this is very troubling--who indicate that they face 
large out-of-pocket medical costs, including hospital bills, 
while waiting for your office to process their claims. I'm not 
sure what they would do if they didn't have the funds. What do 
you do? What's your recommendation for these workers who are 
simply waiting to be processed on how they should deal with 
their own providers demanding payment for services rendered?
    I understand that, of course, some cases may be 
complicated; and you yourself have testified about the 
difference in cases with some occupational diseases and 
different from traumatic injury on the job, for example. But 
some of these cases were clear-cut, on-the-job accidents that 
were witnessed by multiple individuals. How can you explain the 
delay that caused the employee to either make out-of-pocket 
payments or risk losing perhaps the ability to be reimbursed by 
the provider?
    Mr. Hallmark. Without knowing any of the details of the 
cases that you're referring to, Congresswoman, I can't directly 
explain. I can only----
    Ms. Norton. Well, is it your view that there is no delay in 
these kinds of ordinary kind of traumatic on-the-job accidents?
    Mr. Hallmark. Well, I would say, as I suggested in my 
remarks, there are also complicated cases. A lot of the 
complicated cases have do with occupational disease, but----
    Ms. Norton. So those complications may mean----
    Mr. Hallmark [continuing]. Not always.
    Ms. Norton. Those complications may mean that no payment is 
going to be required at all. Is that what you're saying?
    Mr. Hallmark. In the circumstances when we're making an 
initial determination about the acceptance of the claim of the 
original injury, we have to make a determination that in fact 
the injury meets all the criteria for coverage under the FECA. 
Oftentimes, there are complexities. Even on a traumatic case--
you mentioned situations which were witnessed, so I take it it 
is individual traumatic events. Even in those circumstances 
there can be complexities about whether the activity was, in 
fact, covered.
    I don't know--you know, I don't know the circumstances of 
the case you're talking about, but we can have some delays in 
those cases. While the case is still being adjudicated, we 
would not be able to make a medical payment.
    Ms. Norton. Of any kind?
    Mr. Hallmark. If we haven't accepted the condition, then we 
have no ability to make the medical bill payment.
    On circumstances, we try to move very quickly----
    Ms. Norton. Are such on-the-job witnessed accidents 
normally turned down?
    Mr. Hallmark. Not at all. As I believe my testimony 
indicated, we approve something like 92 or 93 percent of all 
what we call traumatic incidents, which is any kind of an 
injury that happens in 1 day. So the vast majority of those 
cases are approved.
    There are some which are not approved for reasons----
    Ms. Norton. So if an employee came to you, Mr. Hallmark, 
and said, ``I don't have any more ability to make outlays on my 
own behalf. I'm an employee who has been a good employee,'' 
what would you advise that employee?
    Mr. Hallmark. With respect to paying medical bills while 
the case is pending?
    Ms. Norton. Yeah.
    Mr. Hallmark. It would be my expectation that, in most 
cases, providers are willing to wait, and/or the employee's 
health benefit program could be convinced to make payments. We 
often reimburse Blue Cross or other health benefit programs for 
payments made for a case which later is accepted as work-
related but which was not accepted at the time. So there are 
ways to address those issues.
    But from an OWCP perspective, our primary goal is to get 
those decisions done very quickly. We adjudicate the vast 
majority of cases within our timeframes. For traumatic cases, 
our goal is 45 days. For occupational diseases that are 
relatively straightforward, our goal is 90 days. And for 
complicated, cases it is 6 months. We meet or exceed those 
goals in an overwhelming number of cases.
    But in all programs of this kind, there are cases that are 
outliers, that are on the edges, where a series of complexities 
come into play, and those are the ones that sometimes cause 
these kinds of difficulties.
    Ms. Norton. Understandable, Mr. Hallmark.
    In such a case, while you are processing, would it be 
appropriate or indeed does it occur that the agency is willing 
to assist the employee so that the information that the claim 
is being processed is understood to be a good-faith one?
    I'm telling my--I'm giving my insurer, my servicer my 
story, and I don't have any more money to pay. I'm only asking 
because I accept your view, especially given the number of days 
you're describing that the agency is in fact in the process. 
But all we have now is this person who can't front the money 
anymore. I certainly am not asking you to say, hold it, we're 
coming with the money. I am saying this is an employee of the 
agency with a good record and no money. And wouldn't it--is 
there some way you can assist this employee so that this 
employee is credible when she says it is an on-the-job accident 
witnessed by six people, I'm still waiting X number of months. 
Is the agency at any obligation to assist this good employee?
    Mr. Hallmark. By ``the agency,'' do you mean OWCP or----
    Ms. Norton. Yes, the processor. Or do you think the agency 
should do it? I'm looking for some way that this employee who 
is going into bankruptcy waiting for you to process their claim 
can somehow get some assistance.
    Mr. Hallmark. There are certain circumstances in which the 
employing agency can issue a form that provides authorization 
for a brief period of time--I think it is up to 60 days, I 
believe--for medical benefits. In the case where it is not 
disputed that the injury has been work-related--an auto 
accident, for example. The employing agency is supposed to 
issue the CA-16 to the injured worker. They can take it with 
them to the emergency room or to a physician; and that 
provides, in effect, a guarantee that there is going to be 
payment made for----
    Ms. Norton. That's kind of an instant--a situation where--
instantaneous guarantee. And, of course, I'm simply going on 
the record that's before us. You don't have any such--you have 
witnesses, perhaps, according to those who have been in touch 
with the subcommittee, but you don't have an indisputable 
matter with respect to how much compensation is due. And the 
initial outlay if you have, I don't know, Blue Cross/Blue 
Shield, it is probably not going to be a problem for the 
servicer in the first place. It is when it gets old and time 
goes on and the employee has no funds that the concern is 
raised that I am raising.
    Mr. Hallmark. Well, as I said, I believe--it is typically 
the case that health care providers like Blue Cross would 
reject or not pay a case if they know that it has been filed as 
a workers' comp claim.
    Ms. Norton. Yes. That's true.
    Mr. Hallmark. I believe there are circumstances, the kind 
where we're talking about now, where there could be 
communications to allow--to ensure that Blue Cross or whoever 
the carrier is in fact accept those payments because the 
workers' comp benefit is not flowing. So my assumption is that 
in those kinds of cases what we need to do is communicate more 
effectively between OWCP and the injured worker and, in some 
cases, with the medical health provider as well as with the 
employing agency.
    But, as I say, there are going to be cases where in fact 
there is a dispute. Perhaps the agency--even though the event 
was witnessed, the agency may not believe that in fact it was a 
work-related event. We have----
    Ms. Norton. Well, I appreciate your response.
    The question I'm raising is basically one that goes to 
communication and to, of course, the burden that the agency may 
or may not have but which the employee has no matter what the 
decision is and to the extent that communication so that people 
know what is being processed all to the good. And the reason I 
raise it is because there have been complaints that were 
transmitted to this subcommittee.
    Ms. Segraves, as to TSA employees, there have been reports 
to the subcommittee of employees who make it difficult to apply 
for Federal Employee Compensation Act [FECA], benefits. The 
kinds of examples they have offered include refusing to provide 
the necessary paperwork, talking employees out of applying for 
compensation, and not allowing employees to seek medical 
attention. You know, I understand how when somebody comes to 
talk to the agency that there are questions to be asked and 
perfectly legitimate questions, but are you aware of these 
occurrences?
    Ms. Segraves. Madam Chairwoman, unfortunately, I'm with the 
Office of Occupational Safety & Health, and that would be a 
question to pose to the Office of Human Capital's Office of 
Workers' Compensation programs----
    Ms. Norton. I asked you if you are aware, Ms. Segraves.
    Ms. Segraves. No, I am not.
    Ms. Norton. So you have never heard of people--you don't 
think perhaps training might be necessary by your agency for 
TSA managers and supervisors who receive some--are you troubled 
by this?
    Ms. Segraves. Again, I've not heard any of this information 
to validate that and to comment.
    Ms. Norton. And you say who has heard it is who?
    Ms. Segraves. I'm saying that, in my capacity, I've not 
heard of these issues.
    Ms. Norton. Who would have heard it?
    Ms. Segraves. Again, our Office of Human Capital, Office of 
Workers' Compensation Program.
    Now, what I will say is that we do have communication set 
up for employees to voice different issues.
    Ms. Norton. I'm sorry?
    Ms. Segraves. We do have what I think is a pretty robust 
communications program for employees to raise issues. But, 
again, in my capacity from the occupational safety health side, 
I've not heard of those claims or those concerns.
    Ms. Norton. Well, that was one that stood out for me.
    Are the results of the radiation surveys that are performed 
on TSA equipment posted so that employees have access to these 
results?
    Ms. Segraves. What we did do is, instead of posting the 
full packet on a system, we do provide what we call a radiation 
safety survey sticker, and so it informs the employee that when 
the survey was done and when the next one is due. However, at 
any time, they can request a copy of the survey for their 
review. So it is available. It is just not something that's put 
right on the system.
    Ms. Norton. So it is available. It is a sticker?
    Ms. Segraves. Yes. It is mounted on the systems.
    Ms. Norton. Dr. Howard, your observers apparently did 
observe some unsafe practices, poor work practices. What should 
TSA be providing its employees in terms of training and 
equipment to deal with the unsafe practices you found clearing, 
for example, bag jams?
    Dr. Howard. Employee training is really a vital link in 
protecting employees, and it is the employer's responsibility 
to make sure that the training program covers all of the issues 
and is effective, the employees understand the issue, and so 
they are empowered to be able to make the changes themselves. 
Because, oftentimes, workers are not directly supervised every 
minute of their job.
    For instance, one of the practices that we noticed is 
unjamming a baggage jam. Oftentimes, passengers will push their 
bags through and they'll get stuck in the machine. And one of 
the administrative controls that we have recommended is for 
employees not to be putting their arms into the machine to 
extract baggage but rather to use an instrument that would 
protect them from that. So that is a very simple type of 
procedure, but it requires training, it requires reinforcement 
of that training. So that's an important recommendation to 
protect employees from that particular practice.
    Ms. Norton. Thank you. Yes. Some things are very 
commonsense, but you've got to be aware of them.
    Mr. Hallmark, very good to hear of a reduction in total 
injury case rates and lost injury time. Could this partially 
stem from agencies reporting fewer injuries and not solely from 
increased focus on workplace safety?
    We are not trying to take credit from whatever focus that 
has been, but, going back to the question that I raised 
initially with Dr. Howard, we need to understand as much as we 
can about changes that we see and, to the extent that we can, 
separate out cause and effect.
    Mr. Hallmark. I understand.
    The POWER initiative that's just been announced by the 
President includes goals--we'll be setting goals for each of 
the agencies to reduce lost time and total case rates, to 
reduce the number of injuries that people have. But we've also 
included in that set of goals a focus on timely reporting of 
injuries when they do occur. And, obviously, that's a very good 
thing from several perspectives. We can't do a good job and 
address the kinds of problems you were mentioning earlier if we 
don't have the claim in hand.
    But another reason for that goal to be included is because 
we don't want agencies to solve the first problem by not filing 
claims that should have been filed. So the reason for having a 
goal for timely filing is to keep the emphasis on, yes, when an 
injury occurs we want that electron to flow to OWCP. We don't 
want people to dissuade injured workers from coming forward and 
solve--reach their safety goals through a process that's 
inappropriate. Obviously, we are aware of that as a 
possibility. We try to stay in touch with it, and we do 
communicate with agency representatives including the DHS and 
TSA folks who work with the workers' comp side of the house.
    Ms. Norton. So you think there has been an actual 
reduction?
    Mr. Hallmark. I'm sorry?
    Ms. Norton. You think there is been an actual reduction of 
injuries?
    Mr. Hallmark. Absolutely. The number has dropped every year 
since about 2003 or 2004. Actually, it rose in the early years 
in 2003 and 2004, maybe in big part because TSA was ramping up 
and TSA had a lot of injuries in its early days. As was 
testified to this afternoon, they have improved their safety 
record substantially, and they have improved their return-to-
work efforts such that their lost production days, which were 
in 2005 I think were around 400 lost production days per year 
per 100 FTE, it is down to around 100 now. It is still a high 
number, but 400 was extraordinary.
    Ms. Norton. That's because they are more experienced now? 
Their turnover there----
    Mr. Hallmark. Several reasons. One is they've reduced the 
number of injuries. Lost production days can be reduced by just 
not having the injury in the first place.
    Ms. Norton. So they have been laudably proactive.
    Mr. Hallmark. Yes, they have been.
    And the other thing you can do is get people back to work 
when the injury occurs.
    Ms. Norton. How do you do that?
    Mr. Hallmark. Well, in the case of agencies such as TSA, 
where the individual has physical requirements, it requires 
finding ways to split up the job, bring people back on 
sedentary responsibilities. In effect, it requires creativity 
on the part of management to find ways to reemploy people and 
to accommodate them, the same as the management should be 
trying to hire people with disabilities in the first place and 
accommodate them. So that's a management responsibility, and I 
think TSA has shown in the statistics that they are addressing 
themselves to that.
    Ms. Norton. Thank you, Mr. Hallmark.
    Ms. Segraves, what is the reasoning behind disallowing the 
employees at TSA to wear personal dosimeters? Did you receive 
advice from any of the various agencies at DHS or the CDC, 
etc., on that regard? They apparently did wear some such before 
the Federal Government took them over.
    Ms. Segraves. Right. The responsibility for aviation 
security screening was performed by the FAA, and so--but even 
prior to the TSA and even prior to 9/11, the FAA removed the 
requirement for radiation dosimetry. So after 9/11 and of 
course then whenever TSA ramped up, then those radiation 
dosimeters were not issued.
    Ms. Norton. Wait a minute. If an employee has his own dos--
you can't wear it anyway?
    Ms. Segraves. Well, it is not as simple--whenever you--to 
just have an employee just go out and buy their own dosimeter. 
It is not that simple, unfortunately. You have to have control 
badges. We have to have a mechanism to be able to read that 
badge and then understand where that badge has been during the 
course of the individual's wearing. So, for example----
    Ms. Norton. But if it is their own personal device. So what 
do you care about whether or not it has its batteries?
    Ms. Segraves. But, again, it is just we would still have to 
have the control with that to be able to make a determine of 
the----
    Ms. Norton. Well, I'm not asking you to use it to make 
determination. If I want to wear it myself, why can't I wear it 
myself?
    Ms. Segraves. Well, what I'll say is the fact that in my 
capacity, my requirement is to do the proper assessments, do 
the proper analysis and evaluations, and to make determination 
whether or not radiation dosimetry is required. So if there 
is--and if we are well below the occupational safety health 
dose limits. So if the individual wants to voluntarily wear 
one, then I would refer to my senior leadership then to make 
that decision.
    Ms. Norton. You don't see anything wrong with that, do you? 
I mean, that can't hurt.
    Ms. Segraves. But, again, we would have no control over to 
the results of that dosimetry.
    Ms. Norton. No, and that's what you'd say. If someone come 
running to you, you have a perfect answer.
    So, from the employee's point of view, it looks strange. It 
looks like you don't want them to know. And, of course, they 
can't know because their device is not being monitored by the 
Federal agency. So as long as they know that it has no effect, 
it gives them some comfort, you know, like sucking your thumb--
excuse me--but at least you have it on you or maybe your wife 
insists that you do it, even though she doesn't know what she 
is talking about. Why would the agency want to make trouble in 
that family by saying you're going to get fired if you take 
your own dosimeter?
    Ms. Segraves. Well, and I'm not really sure that's been 
presented, that employees have actually been denied. I think, 
at least from my standpoint, we have educated the work force to 
tell them what the doses are and--excuse me--what the emissions 
are----
    Ms. Norton. Would you find out what the exact policy is on 
that and within 30 days report that to the committee?
    Ms. Segraves. I can do that. Yes.
    Ms. Norton. I would like to go back to Dr. Howard.
    Could you advise the subcommittee on other Federal 
occupations that would deserve or need close scrutiny for 
exposure concerns?
    Dr. Howard. Well, the risk in the Federal work force varies 
by the exposure to biological, chemical, physical agents. So, 
for instance, in the public safety sector where we have police, 
firefighting, correctional officers, other types of public 
safety officers, those occupations are at high risk; and there 
are a number of exposures that are important there. As we've 
talked about with TSA baggage screeners, there are a number of 
exposures including radiation that are important.
    So the general sector of public safety is one in which you 
look at injury and illness rates, and they tend to be higher 
than other occupations so they deserve a lot of attention. And, 
indeed, we have done a number of both health hazard evaluations 
and research studies in public safety, in firefighting, in 
police officers, in correctional officers and others. So they 
are high-risk occupations in the Federal sector.
    Ms. Norton. I have jurisdiction in the committee I chair 
over workplace violations here in the legislative sector, and 
some may remember reading of workers in tunnels of the Capitol 
exposed to asbestos. It was shocking to Members and staff to 
hear of this. I would imagine there are similar tunnels or 
pipes that have to be attended to by other Federal agencies and 
other Federal workers.
    Do you know of exposure, for example, to asbestos, one of 
the legendary substances that is being taken down all over the 
United States with effects long ago that can't be rectified but 
effects we see every day for workers charged with this task?
    Dr. Howard. Well, certainly the situation that you bring up 
in terms of the Capitol Hill tunnels and asbestos exposure is 
one that at NIOSH we are very familiar with, because we were 
involved in advising the compliance office of Capitol Hill on 
those issues. But certainly in any workplace, Federal or non-
Federal, the exposure to asbestos in place is a very big issue 
and involves a lot of----
    Ms. Norton. You have not had occasion to look at the rest 
of the Federal workplace at these issues, only here in the 
Capitol?
    Dr. Howard. We've had a number of HHEs in Federal buildings 
that have involved possible exposure or potential exposure to 
fibers such as asbestos. Yes.
    Ms. Norton. I would think that would rank right up there 
with firefighters and others.
    Thank you very much. I see that the real chairman is back.
    Mr. Lynch [presiding]. First of all, I want to thank Ms. 
Eleanor Holmes Norton for her kindness and her ability in 
conducting this hearing in my absence. I really appreciate 
having you here and having you able to do this. It allows us to 
get much more done.
    I want to thank the witnesses. I apologize. We had votes on 
the floor, as you know. But I really do appreciate you coming 
before this committee and helping us with our work.
    In reviewing the testimony that was submitted prior to the 
hearing, I did note in the NIOSH 2008 report that researchers 
had observed covered agency stop buttons. In your view, based 
on those surveys done at the 12 airports, does TSA have a 
uniform lockout and tag-out procedure in place when 
transportation security officers [TSOs], must clear these bag 
jams? And did it appear the workers were aware of and were 
following those procedures? Is there any alternative approach 
here in terms of suggestions for maybe improving the lockout/
tag-out procedures?
    Dr. Howard. Well, we certainly expressed concern in our 
report and asked TSA to look at that issue. We did not provide 
specific recommendations on alternative procedures, but we 
certainly don't think that the insertion of one's arm into an 
active machine is a good idea in any sense. So we were very 
concerned about that issue and made recommendations to TSA to 
provide instruments to remove baggage if they get stuck inside 
the machine and a TSA employee has to get the bag out.
    Mr. Lynch. OK. Did they respond in any way that indicated 
that they might be moving toward that?
    Dr. Howard. Well, certainly in our evaluation, we provide 
the recommendations to employees and to the employer in our 
HHE. We don't necessarily do oversight on whether the 
recommendations are implemented. So Ms. Segraves may have an 
answer to that particular issue.
    Mr. Lynch. Were you at all able to--you know, and this is 
completely something that came up in my discussion with some of 
the TSA employees about the new scanning machine, the total 
body scanning machine and the number of x-rays that--I guess 
they are tiny X-rays or very brief. But there is a lot of 
concern there among the rank and file, just the folks that I 
run into. I am in and out of airports all the time.
    There is a concern about--well, they realize it is not 
overexposure for the passenger, but for the TSOs that are 
standing there and conducting this hour after hour, they were 
concerned. I raised the issue with George Nacarra at Boston, at 
Logan Airport, and he didn't seem that concerned. But I still 
felt that, you know, there hadn't been a really in-depth look 
at this. Do you have any sense of what hazards that might 
present or not?
    Dr. Howard. Certainly from a radiation safety perspective, 
the issue would be how much scatter there is from the machine. 
Obviously the passenger is standing there at the beam. So the 
question in any of these situations is how much scatter is 
there. If there is any scatter at all, then can you protect or 
shield the employee from that scatter? For instance, the 
baggage screening machines have flaps and it is enclosed. So in 
the body scanner, that would be the issue.
    We have not, NIOSH has not evaluated body scanners. We are 
happy to do so at TSA's request or the employees' request, but 
we haven't actually done that kind of work yet.
    Mr. Lynch. OK. Anybody else?
    Ms. Segraves. Yes. We have evaluated the AITs, both from a 
public dose limit, the dose to the public as well as our 
employees. So there is an American National Standards Institute 
standard that we must follow to ensure the safety and health of 
not only the public but our employees. So the doses that are 
emitted from these machines are very, very low. So when the 
employees are standing beside the machine, they are not 
receiving a dose.
    So we instruct you our employees, there is an area around 
the system that has a mat with a yellow line on it, and we tell 
them just to stay away from that--stay off that, I should say--
so that their radiation exposure is as low as reasonably 
achievable.
    In Boston, we have placed area radiation dosimeters on the 
systems up there, and we started in April, and so we should 
hopefully have the evaluation results on those shortly. But 
even with the surveys we are doing, it is almost--it is just 
background.
    Mr. Lynch. Are you asking the TSOs to wear dosimeters or 
anything like that?
    Ms. Segraves. No, there is no requirement to do so at this 
time, and that is why we are doing the area dosimetry.
    Mr. Lynch. It might actually help with confidence for the 
employees if we somehow allowed them to wear dosimeters and 
then allowed them to have an impartial reading of that to 
figure out if they are picking up rems or any radiation. I 
think it would give them great peace of mind if they were able 
to become part of that process. I think that might go a long 
way.
    I don't discount what you are saying in any way, but I 
think that it might be more convincing for the employees, and 
it might rule out any aberration that might be something that 
might be missing if it was actually on the TSO, the screener 
themselves. Thank you.
    Now, would that be something legislatively that we would--I 
know TSA hasn't asked for it, you know, a more thorough 
screening process for the body scanners. Is that something that 
you would rather us do?
    Ms. Segraves. You mean as far as the availability of 
dosimetry on personnel that operate the AITs? We can certainly 
take a look at that. We are performing personal dosimetry at 
six airports now, based on the recommendation from the National 
Institute for Occupational Safety and Health. So we can 
certainly look at that.
    We do have a start, though, with the area dosimeters placed 
on these systems, again only at Boston, Cincinnati and Los 
Angeles. So surveys and independent evaluations, you know, 
again, state that these systems are safe both for the folks in 
the public as well as our employees. But we can certainly look 
into doing some personal radiation dosimetry.
    Mr. Lynch. Would there be any enhanced vulnerability, say, 
to pregnant women? That is one example, I guess, being exposed 
to that low level of radiation. Is that something that might 
expose the fetus to that, to danger, as opposed to, you know--
--
    Ms. Segraves. From the public or from the employee?
    Mr. Lynch. Either.
    Ms. Segraves. Either? No, there is none. There is none. 
Again, we are following the American National Institute 
standard that lays out the requirements for the doses of the 
system, and these systems are well, well below the ANSI 
standard.
    Mr. Lynch. OK. Let's see, I wonder if you could describe 
the kind of unsafe work practices that have been witnessed by 
NIOSH staff in regards to what were described as poor work 
practices? What in your opinion should TSA be providing its 
employees in terms of training and equipment to properly deal 
with the clearing of the bag jams that might occur?
    Dr. Howard. Right. Again, I think there are two issues. One 
is proper training, because there is I think an importance to 
making sure that employees realize the risk of inserting their 
arm into an active machine before turning it off, etc. Having 
the proper equipment supplied by the employer to unjam a bag 
jam is extremely important; instead of using your arm, to use 
an instrument.
    So all of those things are extremely important in making 
sure there is no unnecessary exposure. The flaps of the machine 
that you stick your bag through are protective. They act as a 
shielding for radiation. But when you violate that protection 
by putting your arm in it, that is a serious issue.
    So that is probably the most important practice that we 
would consider improper and risky that we would like to see 
corrected, and I am sure TSA has paid some attention to that 
recommendation.
    Mr. Lynch. OK, thank you.
    The subcommittee has heard some complaints about files 
being lost and misplaced or that are inaccessible. A document 
provided by your office to the subcommittee says when an 
appellate body requests a case file, the electronic portion of 
the file is sent instantly, but the paper portion of that same 
file must be physically shipped. It seems when a case file is 
requested, any paper portion of the file should be made 
electronic, and then the complete case file be sent 
electronically.
    What are the barriers to setting that kind of a procedure 
up?
    Mr. Hallmark. The OWCP started imaging cases around 2000, 
so we have about 10 years now. We did it prospectively, so all 
new cases starting then were imaged and are totally imaged. 
Cases which preexisted, we did not go back and image all of the 
old files. Basically, the cost-benefit analysis, many of the 
old files are very, very large and we just couldn't afford to 
do that.
    The process, it has been our expectation that over time the 
number of cases that have a split file, in other words, an 
electronic component and a paper component, would diminish, and 
that we will get to the point where we do have a cost-benefit 
analysis that makes sense to do all the back-imaging. We 
haven't gotten to that point yet.
    Mr. Lynch. OK. We also got some data regarding appeals to 
the three different appeals bodies, and it just indicates that 
between a quarter and a third of the appeals are overturned in 
favor of the employee and are returned to your respective 
offices for further development.
    With respect to these overturned cases, has there been any 
analysis regarding a pattern of, I don't know, just a failure 
or a gap in the system where these employees are being 
improperly denied? It looks like approximately 26 percent of 
the cases appealed to the Employees Compensation Appeals Board 
are settled in the employee's favor. It also seems that the 
appeals to ECAB also involve an error found in the initial 
denial, a lot of these cases. Some appeals to the Branch of 
Hearings and Review and Reconsideration also involve errors 
found in the initial denial. So we are seeing the appeals, the 
successful appeals, hinging on errors in the initial 
assessment.
    What has the OWCP done to analyze any trends in these 
cases, that maybe the first hearing officer or the first person 
conducting the analysis has not accurately or properly assessed 
the evidence, and do you have any type of training that might 
help reduce the error? A third, that is a considerable amount 
of cases to have improperly assessed at the outset. That is a 
huge cost by burdening the appeals process.
    I am just wondering if we are doing any analysis to look 
back on the cases that have been ruled on in error to maybe 
reduce that flaw?
    Mr. Hallmark. A few things I would say about that. First of 
all, the remand overturn rate of both ECAB and our Hearings and 
Review internal Unit is relatively common within the Workers' 
Comp world, if you look at State compensation systems. Many of 
the errors or the overturns or remands at the hearing level, 
especially, are generated by new evidence that has been 
presented or new argument, so it is not necessarily the case 
that--in fact, it is certainly not the case that all of the 
remands and overturns are error-related.
    ECAB doesn't take new evidence, but they do take new 
argument, so it is not a one-to-one relationship even there, 
and obviously in some cases ECAB takes a different--in a 
particular review, a particular case, may take a different 
posture with regard to their understanding of policy and 
procedure than was taken below. So it doesn't translate 
necessarily directly into, yes, the person who made the initial 
decision was wrong.
    Nevertheless, to answer your first question, we do review 
the cases that are returned. We do look for trends. The policy 
shop in the national office evaluates the decisions coming back 
from ECAB and provides guidance to the district offices about 
emerging patterns of the nature that you speak to. So that is a 
part of what we do, and we do the same with respect to hearings 
cases. And the district offices, when receiving those cases 
back, the remands and overturns, evaluate them individually to 
determine what is necessary in terms of training or other 
activities that they need to conduct locally with respect to 
those cases that are coming back.
    So I think the answer is we are working on those issues. We 
do have a relatively substantial training program that is 
ongoing. Our system is now automated so we have training 
modules that new employees can go on to the computer and pull 
up various modules for the different segments of the work that 
we do. That work is still ongoing. It isn't complete yet, but 
it is moving very well, it is progressing, and I believe our 
training delivery is in fact moving toward a much stronger 
situation than we have had in the past.
    And we are also improving our evaluation of our quality in 
general. We have what we call our accountability review system. 
We review on our motion--this is not from auditors outside our 
system--we do it ourselves; we review a large sample of cases 
across all of our district offices addressing all aspects of 
the work we do to identify what we think is the real quality of 
the work, and then we develop corrective action plans 
commensurate with what we find in those activities.
    That system has just recently been substantially altered 
and I believe improved, taking advantage of the fact that we 
now have image cases so we can bring all of the offices' work 
together and do the evaluation for a specific type of case 
nationwide and then develop corrective action plans nationwide.
    I think that is going to have some real powerful effects 
for the program, and I look forward to improvements along that 
line.
    Mr. Lynch. Thank you.
    Now, Mr. Hallmark, do you look at particularly the hearing 
officers and see how they are ruling and whether or not they 
are in compliance with your own standards or that they might be 
misinterpreting certain standards?
    Mr. Hallmark. Well, I don't personally, which is a good 
thing because I probably wouldn't be qualified to do that. But 
the individuals who manage our hearing unit, which, as I said, 
is internal to OWCP, are responsible for doing that on a day-
to-day basis. They evaluate the decisions that are made and 
they provide guidance and coaching, and obviously they evaluate 
those individuals, their subordinate staff, throughout the 
year. So that is done.
    Mr. Lynch. Thank you.
    Ms. Segraves, I wanted to go back to the radiation issue. 
Now, when you say the machines comply with ANSI, is that just 
sort of the model number, or do you actually test the 
individual scanning machines?
    Ms. Segraves. We test the scanning machines to make sure 
they meet those requirements. So even prior to the deployment, 
we have the Johns Hopkins Applied Physics Laboratory go ahead 
and do an independent evaluation for us. So we know the systems 
were designed to meet the ANSI standards. So then as we started 
to deploy them, each system has to go through a factory 
acceptance test, and then once it is deployed to the actual 
airport, it has to go through site acceptance test, and then we 
would proceed with routine preventive maintenance radiation 
surveys.
    We also have an independent team that has been going out to 
the airports now to perform additional radiation surveys 
because it is a new technology that has been deployed. So that 
is why I was saying whenever we have gone to Boston, 
Cincinnati, and Los Angeles.
    Mr. Lynch. OK. One of the things that I heard from one of 
our TSOs is that--one of the longer serving ones--he said that 
prior to 2001 they were allowed to wear these lanyards with 
dosimeters on their person, and then when we Federalized those 
officers after September 11th, that they were no longer allowed 
to wear dosimeters to measure radiation. I was wondering what 
the rationale behind that was?
    Ms. Segraves. The rationale was actually the FAA, and they 
actually in the Federal Register prior to 9/11 had removed the 
requirement for radiation dosimetry. There was cabin x-ray 
systems, and they had data over the years, and so they removed 
the requirement. So that whenever TSA Federalized, then we 
didn't put dosimeters on our personnel then.
    Mr. Lynch. But it would seem to me to be the case where we 
are using more radiation machines now than we were in 2000, so 
the opportunity for exposure is far greater now.
    Ms. Segraves. I wouldn't necessarily say that, because the 
systems that screen the passengers' accessible property at the 
checkpoint as well as that screens your checked baggage are 
called cabin x-ray systems. So they all must meet the Food and 
Drug Administration standards, which is very low, it is 
something like 0.5 milirankin in any 1 hour. And that is 2 
inches from the surface. So it is not when you install more 
systems that you now created a higher dose environment, so to 
speak.
    Mr. Lynch. What is the harm? This is telling them you won't 
put that dosimeter on, you will not measure the radiation that 
you are exposed to. That is the rationale I am trying to get 
at. In other words, you are telling these workers that they 
should not take any measures for their own reassurance in terms 
of--and it doesn't seem like it would be that intrusive, but it 
probably just would be reassuring to the employees, knowing 
that they are not picking up excessive amounts of radiation.
    This reminds me of the policy that we had during the swine 
flu, when TSA told their workers, you won't wear those masks. 
Even the ones on the border with Texas. The swine flu emanated 
from Mexico City, and we had some of these TSOs, these transit 
security officers, exposed to a lot of passengers coming 
through there, and they were patting them down. And yet TSA 
said, you shall not wear those masks because you might scare 
the passengers. The odd thing was that the Mexican TSOs all had 
the masks on, which really puzzled me.
    You know, denying them the opportunity to protect 
themselves and to provide that added reassurance has been 
denied, and I just am curious for the rationale there. FAA 
originally wiped it out, but what about continuing it?
    Ms. Segraves. Again, that was before I came on board with 
TSA. But I can tell you since my tenure on TSA, that we, again, 
take radiation surveys and we also then coordinate with the 
employees with these independent surveys to make sure they feel 
comfortable working around the systems. Our training has beefed 
up tremendously to address the NIOSH findings from unsafe work 
practices around these systems, and we are also now engaged in 
a 6-month personal radiation dosimetry program based on the 
NIOSH recommendations that should be finishing up here shortly.
    So what we are finding out right now is even with that 
year-long dosimetry program at the six airports, we are not 
seeing the levels such that would come close to the requirement 
for the employees to be wearing dosimeters.
    Mr. Lynch. OK. We have also heard from some TSA employees 
whose supervisors allegedly have made it difficult to apply for 
Federal Employee Compensation Act benefits. The instances that 
we have ever uncovered include refusing to provide the 
necessary paperwork, actually dissuading or talking employees 
out of applying for compensation, and also not allowing 
employees to seek medical attention.
    Are you aware of these allegations or these claims? And 
while it is a laudable goal for an agency to seek to reduce on-
the-job injuries, it is concerning that these efforts appear to 
result in an agency attempting to reduce case rates by 
pressuring employees not to report injuries. I am a little 
concerned with that.
    Ms. Segraves. Well, my office is a little bit different. I 
do not manage the Office of Workers' Compensation programs, but 
I personally have not heard of any of these concerns and where 
supervisors have denied employees from filing a Workers' 
Compensation claim.
    Mr. Lynch. OK. Thank you.
    I am going to ask if there are any added points that you 
would like to make, any questions I have failed to ask, or 
something you would like to amplify before we move to the next 
panel. Dr. Howard.
    Dr. Howard. No, sir. Thank you.
    Mr. Lynch. Mr. Hallmark.
    Mr. Hallmark. I think we have covered it.
    Mr. Lynch. Ms. Segraves.
    Ms. Segraves. The only thing I would like to stress is the 
NIOSH study was done in 2003-2004 when a lot of these findings 
and unsafe work practices occurred. The TSA work force and 
agency today is a much different work force and agency that 
cares for the employees. Their safety is No. 1. And we have 
made great strides in ensuring the health and safety of our 
work force.
    Mr. Lynch. Thank you. Are you saying the study was done--
the 2008 report relied on 2003-2004 data?
    Ms. Segraves. That is correct. Yes.
    Mr. Lynch. That is a good point. Thank you for your 
willingness to come before the committee and help us with our 
work. I wish you a good day. Thank you.
    [Witnesses excused.]
    Mr. Lynch. Good afternoon and welcome. Before we afford an 
opportunity for you to testify, it is the practice of this 
committee to ask all witnesses to be sworn. Could I please ask 
you to stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Lynch. Let the record show that all the witnesses have 
answered in the affirmative.
    What I will do is I will offer a brief introduction of each 
of our panelists, and then we will go back and allow them to 
each make a 5-minute opening statement.
    Let's see. Mr. John Adler has been the national president 
of the Federal Law Enforcement Officers Association since 
November 2008. Mr. Adler began his career in law enforcement in 
1991 and has served as a Federal criminal investigator since 
1994. His experience includes working a wide variety of 
investigations and enforcing most of the Federal criminal 
statutes.
    Mr. James Johnson has served as the 16th district vice 
president for the International Association of Firefighters 
since 2004, where he represents all firefighters serving in the 
United States and Canada. Mr. Johnson served as President of 
the International Association of Firefighters, Local F88, in 
Ohio from 1998 to 2004 and as a lieutenant in the Wright-
Patterson Air Force Base Fire Department from 1987 to 2004.
    Ms. Maureen Gilman is the Director of Legislation for the 
National Treasury Employees Union which represents 150,000 
Federal employees and retirees. Ms. Gilman focuses extensively 
on civil service, budget, tax and appropriations issues. Prior 
to joining the National Treasury Employees Union in 1992, Ms. 
Gilman served as chief of staff to Congressman Sam Gejdenson.
    Ms. Milagro Rodriguez has served as the Labor Relations 
Specialist for Safety and Health for the American Federation of 
Government Employees since 1997. During her tenure, she has 
developed and implemented an aggressive health and safety 
program featuring education, information, training and 
advocacy. Ms. Rodriguez has a master's of public health degree 
from George Washington University.
    Welcome. Mr. Adler, you are now recognized for 5 minutes 
for an opening statement.

   STATEMENTS OF JON ADLER, NATIONAL PRESIDENT, FEDERAL LAW 
ENFORCEMENT OFFICERS ASSOCIATION; JAMES JOHNSON, 16TH DISTRICT 
  VICE PRESIDENT, INTERNATIONAL ASSOCIATION OF FIRE FIGHTERS; 
  MAUREEN GILMAN, DIRECTOR OF LEGISLATION, NATIONAL TREASURY 
    EMPLOYEES UNION; AND MILAGRO RODRIGUEZ, LABOR RELATIONS 
   SPECIALIST FOR SAFETY AND HEALTH, AMERICAN FEDERATION OF 
                 GOVERNMENT EMPLOYEES, AFL-CIO

                     STATEMENT OF JON ADLER

    Mr. Adler. Thank you, Chairman lynch. I represent 26,000 
members of the Federal Law Enforcement Officers Association, 
and my testimony is going to address the question of how well 
the Federal Employees Compensation Act is meeting the needs of 
injured workers in high-risk occupations.
    Each year, approximately 300 Federal law enforcement 
officers sustain line-of-duty injuries in violent conflicts 
with suspects. Additional injuries come from vehicular 
incidents, training incidents, and exposure to toxins and 
hazardous materials exposure, and training incidents.
    With all the pain that these noble warriors have endured, 
the greatest pain they suffer from is, unfortunately, dealing 
with negative experiences with the Office of Workers' 
Compensation and the Division of Employee Compensation. And to 
illustrate the pattern of how our members have been mistreated, 
including having to endure financial and emotional duress, I 
will discuss five egregious examples. I will try to summarize 
them, rather than read them.
    The first one involves September 11, 2001, Special Agent 
Mike Vaiani. Mike Vaiani is down there at Ground Zero, the 
first tower goes down. He is with a firefighter. They hear a 
distress signal from another firefighter calling for help. Mike 
and the firefighter run into the tower, burning. They rescue 
numerous people, including firefighters. They manage to get 
everyone out safely.
    In the process, Mike sustained serious injury. He hurts his 
neck, his shoulder, his rotator, his back. It ultimately 
results in having plates and all sorts of things put in that. I 
don't even want to think about, it is so painful.
    Subsequent to the incident, Mike files his claim. A little 
over a month later, Mike gets a phone call from a claims 
examiner, the first time he has heard from OWCP, and the 
question they put to Mike was: Did the firefighter instruct you 
to go into the building?
    Now, it is very disconcerting that was the question 
directed to him, as if that would gauge whether or not they 
would cover Mike, a special agent, for running into the 
building to save Americans.
    It turns out subsequent to that, while Mike was seeking 
immediate treatment--and Congresswoman Norton hit on this 
earlier in terms of the time lapse between when you sustain the 
injury and when the payments come--he incurred serious debt. He 
didn't have the money to pay for his treatment.
    His personal supervisor offered to pay his medical expenses 
on her personal credit card. That is how bad it was. Then at 
some point in 2002 they just lost Mike's file.
    Mike asked me to deliver this quotation, which is, ``I 
would rather run back into the tower while it is on fire than 
have to deal with the Department of Labor.''
    The second case referred to, also in or around or after 
September 11, 2001, Inspector Bill Paliscak goes into the 
Brentwood postal facility because they have information that 
they have equipment that is anthrax contaminated. They needed 
to preserve the evidence.
    Inspector Paliscak enters there, attempts to take custody 
of this evidence, and he is subsequently covered in what seems 
to be anthrax powder, anthrax dust. Within 3 or 4 days, 
Inspector Paliscak, unfortunately, experiences the severe 
symptoms that one is expected or anticipated to have from 
anthrax exposure.
    He files his claim. A lot of time elapses. He goes for 
emergency medical treatment. He becomes deathly ill, and yet 
his claim is not accepted.
    Up until May--I think it is May 2002--no, I am sorry, 
December 2002, Inspector Paliscak was paying his own bills. And 
two of the questions put to him between the time of him 
entering Brentwood facility to 2002 was: First of all, was it 
within your scope to touch a filter or a machine when you are 
an inspector? And second, they challenged whether or not he was 
suffering from anthrax exposure, in spite of the fact that the 
filter he removed was proven to be contaminated with it.
    Now, unfortunately, he ran up serious debt in the process, 
because again we just don't have that much liquidity and funds 
lying around to pay for these situations, and the moment you go 
for treatment and fill out the form at the hospital and you say 
this is work-related, your insurance will not cover it.
    Moving right along, we have in November 2006 Special Agent 
Paul Buta, just made the news, in Annapolis Mall. He is off 
duty with his family. He witnesses a man being beaten to death 
by a bunch of thugs. He intervenes. He stops the lethal threat, 
but in the process he gets shot in the leg.
    Now, I have to say, No. 1, Special Agent Buta is an 
attorney as well, and, No. 2, he is a triathlon athlete.
    He goes for treatment. He has a bullet that is lodged in 
his leg. He is told by experts that he will need serious 
physical therapy to prevent or slow down the atrophy that is 
going to take place just in and above his knee.
    So he goes for the treatment. Unfortunately, his claim is 
not approved and he is accruing substantial debt. As I sit 
here, he has personal debt of $11,800-plus, because his therapy 
was stopped in June 2008 because OWCP determined that at this 
point if he still needs therapy, he might as well go out on a 
disability.
    This is someone who is an outstanding athlete and 
outstanding agent who wants to come back, and he is someone 
that I can tell you President Obama wants standing in front of 
him to protect him.
    Then we have Special Agent Tim Chard. From 2000 to 2007, 
Special Agent Chard was involved in busting and dismantling 
over 100 meth labs on a task force. Unfortunately, as a result 
of sustained exposure to a variety of toxins that exist at meth 
labs, late 2008 into 2009, Special Agent Chard started to 
experience a variety of systems that have been linked to others 
who have suffered from severe meth lab exposure.
    Mr. Lynch. Mr. Adler, where did he serve?
    Mr. Adler. The Utah drug task force.
    Mr. Lynch. OK.
    Mr. Adler. Which, unfortunately, the ranking member is not 
here to hear this, because Mr. Chard is a constituent of his.
    But anyhow, he is evaluated by Dr. Gerald Ross who is 
considered an expert in the area of meth lab exposure, who 
writes a letter saying definitively that, based on his review 
and his examination of Chard, it looks like he is suffering 
from these symptoms, and he recommends him being enrolled in 
the Utah Meth Cop Detox Program, which has worked 
extraordinarily well for 40 other individuals having served in 
that area and having similar exposure.
    His claim is denied, so my organization paid to send him to 
this detox program. He went through it 30 days and he came out 
born again. His high blood pressure stabilized, blood sugar 
stabilized, his migraines are gone, chronic diarrhea gone, and 
just a host of the other symptoms that otherwise we thought he 
was actually going to go down for the count.
    So now he continues to be monitored, but he is paying for 
the expense, and his agency wouldn't, unfortunately, allow him 
to be relocated to an office near the location as well, which 
is a whole other issue. But nonetheless, thanks to--we had to 
appeal to Law and Order actor Vice Don to get publicity to give 
this guy some emotional support. And it shouldn't have to come 
down to that. And as we sit here today, his claim is still 
denied because he can't document every single exposure. Yet the 
task force commander praised Chard by saying that when a 
detective on his task force would otherwise disappear, Chard 
was front and center every single time.
    Then we have most recently this year, we have Deputy Jason 
Matthew, working in Superior Court, who was, unfortunately, 
stabbed by an inmate who has HIV and was secreting an edged 
weapon on her person. And in stabbing him, he naturally is 
rushed to emergency medical care. They were aware the inmate 
had HIV. They were aware that the edged weapon she used that 
she had secreted on her person was likely to be contaminated 
with HIV.
    So they administered first aid, they gave him all the 
treatment. The hospital gave him a prescription for some sort 
of preventative medication for those exposed to HIV.
    Well, he takes it. He pays for it out of his own pocket, 
because OWCP wouldn't process his claim. And then he is 
ultimately told on the phone by an examiner that because you 
have not been diagnosed with HIV, we cannot reimburse you for 
this prescription. So we contacted his agency and his agency 
immediately paid the bill.
    Now, what I am trying to highlight here is a series of 
events. It is not an isolated issue or five isolated issues, it 
is a pattern. What we have here is an inability by OWCP and 
FERC to process these claims timely, to even understand the 
nexus between the injury and the law enforcement function, and 
then ultimately to pay these folks timely.
    I mean, I have five individuals, all of whom have suffered 
financial harm, and some of them are still in serious debt. And 
it makes absolutely no sense.
    So what I was hoping to do was appeal today for a further 
review of how OWCP and FERC handles law enforcement injuries 
and to see whether or not these people are being treated 
properly. I mean, in the end, heroes should be supported by the 
Federal Employees Compensation Act. They shouldn't be hung up 
on a clothes line and hung out to dry.
    Thank you, Chairman. I appreciate the opportunity to speak 
on behalf of my membership.
    Mr. Lynch. Thank you, Mr. Adler.
    [The prepared statement of Mr. Adler follows:]

    [GRAPHIC] [TIFF OMITTED] T4924.025
    
    [GRAPHIC] [TIFF OMITTED] T4924.026
    
    [GRAPHIC] [TIFF OMITTED] T4924.027
    
    Mr. Lynch. Mr. Johnson, you are now recognized for 5 
minutes.

                   STATEMENT OF JAMES JOHNSON

    Mr. Johnson. Thank you, Mr. Chairman. I appreciate the 
opportunity to appear here before you today on behalf of 
General President Chatterer and the nearly 300,000 firefighters 
and emergency medical personnel who comprise our organization.
    Over 10,000 Federal firefighters serving our Nation today 
face some of the most difficult and hazardous working 
conditions in the country, guarding military installations, 
strategic sites, and VA hospitals. This unique work places 
Federal firefighters at increased risk for injury and death.
    Because this is inherent to the occupation and can never be 
fully eliminated, employers must take every effort, make every 
effort, to promote safe practices. But we must also ensure that 
when job-related injuries do occur, employees can easily access 
the care and benefits they deserve. Unfortunately, often the 
Federal Government falls short in providing for Federal 
firefighters, both pre- and post-injury.
    Federal firefighters respond to the same types of 
emergencies as their counterparts in the municipal sector, but 
they also face unique hazards involving incidents at weapons 
depots; facilities, conducting classified work; and aboard 
naval vessels. More often than in other occupations in the 
Federal sector, Federal firefighters are routinely exposed to 
carcinogens, infectious diseases and other occupational 
hazards.
    To better protect firefighters, the fire service has 
developed comprehensive industry consensus standards. The 
adoption and careful application of such standards helps reduce 
risk to the employees.
    While Federal agencies have adopted many standards 
applicable to firefighter health and safety, too often the same 
agencies will fail to follow their own requirements at the work 
site. For example, although the Air Force has adopted SPA 1582, 
the standard on comprehensive occupational medical programs for 
fire departments, it chose to amend the standard in its 
implementation, eliminating or changing important requirements. 
Given the serious health hazards associated with fire fighting, 
such changes leave firefighters employed by the Air Force at an 
unnecessary risk.
    Agencies must not be permitted to water down such standards 
in everyday use. When injuries do occur, a firefighter should 
ideally focus on his recovery and returning to work as soon as 
possible. Unfortunately, too often an injured firefighter must 
instead battle a slow, bureaucratic, and confusing Office of 
Workers' Compensation programs.
    Even before a Federal firefighter files an FECA claim, he 
or she sometimes faces an uphill battle, receiving guidance 
from his or her employer. Often the injured employee is given 
incomplete, conflicting, or flat-out wrong advice.
    Once claims are filed, an employee often encounters 
numerous hurdles which significantly lengthen the claims 
process. The OWCP education process is especially slow. It 
often takes 6 months to a year for OWCP to process a claim for 
employee payments when there are disputes over the claim, and 
60 or more days for OWCP to process a claim where surgery or 
other medical intervention is needed. Aside from contributing 
to employee pain and suffering, such delays come at significant 
economic cost by delaying the employee's return to work.
    OWCP requires duplicate information on various claim forms 
and OWCP should take steps to eliminate duplicative paperwork, 
as well as expand features within the ACS portal, adding 
ability to upload and view medical document forms and receipts 
digitally, eliminating the requirement that such information be 
mailed. These changes would reduce paperwork and the burden on 
the claimant as well as reduce costs.
    Finally, many injured employees have difficulty finding a 
physician who will accept OWCP claims. OWCP should encourage 
physicians to accept patients by creating a physician training 
program and developing resources to help providers better 
navigate the claims process.
    Federal firefighters facing an occupationally caused 
illness face an even greater challenge. Under FECA, Federal 
employees suffering from occupational illnesses must pinpoint 
the precise incident or exposure that caused the disease. This 
burden of proof is difficult for firefighters to meet because 
they respond to a wide variety of emergency calls in different 
environments under varied conditions.
    This inability to pinpoint a specific exposure that caused 
an illness has led to 42 States enacting presumptive disability 
laws covering municipal firefighters. Based on solid scientific 
evidence, States have concluded that certain illnesses are 
clearly associated with fire fighting and they presume these 
illnesses are job-related. Unfortunately, Federal firefighters 
know no such protection.
    To address this inequity, Representatives Capps and Platts 
have proposed legislation, the Federal Firefighters Fairness 
Act, to create a rebuttable presumption that Federal 
firefighters who become disabled by heart and lung disease, 
certain cancers and certain infectious diseases, contracted the 
illness on the job.
    By implementing presumptive benefits for firefighters and 
adopting strong safety standards at work and streamlining and 
improving the OWCP claims process, the Federal Government can 
help prevent injury and assure that when an injury or illness 
does occur at work, the employees may focus on their recovery, 
rather than the status of their claim.
    I would like to thank you for the opportunity to appear 
here today and I would be happy to answer any questions.
    Mr. Lynch. Thank you, Mr. Johnson.
    [The prepared statement of Mr. Johnson follows:]

    [GRAPHIC] [TIFF OMITTED] T4924.028
    
    [GRAPHIC] [TIFF OMITTED] T4924.029
    
    [GRAPHIC] [TIFF OMITTED] T4924.030
    
    [GRAPHIC] [TIFF OMITTED] T4924.031
    
    [GRAPHIC] [TIFF OMITTED] T4924.032
    
    [GRAPHIC] [TIFF OMITTED] T4924.033
    
    [GRAPHIC] [TIFF OMITTED] T4924.034
    
    Mr. Lynch. Ms. Gilman, you are now welcome to offer 
testimony for 5 minutes.

                  STATEMENT OF MAUREEN GILMAN

    Ms. Gilman. Thank you, Chairman lynch, for the opportunity 
to present NTEU's views on health and safety issues in the 
Federal workplace.
    Since this hearing is focusing on high-risk occupations, I 
would like to comment primarily on concerns of Transportation 
Security Officers at the Transportation Security 
Administration, although many of the problems faced by 
employees there, particularly with regard to the Federal 
Employees Compensation Act, exist at agencies throughout the 
Federal Government.
    As we heard from the first panel, shortly after TSA was 
formed, the National Institute for Occupational Safety and 
Health received several requests from TSA employees and from 
TSA itself to assess the work practices and procedures of 
screeners and to determine the extent of radiation exposure. 
The data NIOSH collected led to a series of recommendations, 
including improved training on radiation issues and proper work 
practices, improved explosive detection system equipment 
maintenance, and frequent monitoring of machines for radiation 
leaks, and conduct additional personal dosimetry on screeners 
to evaluate radiation doses.
    In 2007, NIOSH also investigated potential exposure to 
emissions from forklifts and tugs in airport cargo areas. They 
found that employees were overexposed and issued additional 
recommendations. Despite these NIOSH recommendations, our TSA 
members have not seen any personal radiation testing done.
    Baggage screening areas in airports are noisy, dirty, and 
in need of maintenance. At O'Hare airport in Chicago, for 
example, our members have recently recorded regular 
temperatures of over 90 degrees, yet basic requests for fans 
and bottled water have gone unanswered.
    With regard to workers compensation, TSA to its credit has 
reduced FECA claims and injury rates. Unfortunately, NTEU is 
concerned that some of the decrease in claims may be due to 
managers and supervisors discouraging employees from filing.
    TSA changed its management objective reports to include 
specific targets for injury reduction and associated costs in 
performance assessments of Federal security directors. Our 
members feel that this has led to the questioning of injury 
reports and an atmosphere in which lowering the number of 
claims outweighs the rights of employees to appropriate 
treatment of injuries and the assurance of a safe work 
environment.
    In fact, based on these concerns, we have provided our TSO 
members with material on their rights under Workers' 
Compensation that includes the warning, ``Do not let management 
intimidate you into not filing.'' We also look forward to 
working with the administration on its new governmentwide power 
initiative issued on July 19th to ensure that similar concerns 
are avoided in that program.
    NTEU members at TSA have also faced problems in the area of 
sick leave. On June 13th of this year, LAX airport in Los 
Angeles instituted a new leave policy for the entire summer. 
The policy stated that employees would be required to provide 
administratively acceptable evidence for all use of sick leave, 
both scheduled and unscheduled. This was a change from previous 
policy, which only required such documentation for requests of 
more than 3 days of sick leave.
    Our members came to us to ask our help in overturning this 
policy. It seemed to them and to us that it would encourage 
employees to report for work even when they were sick. In 
addition, it would require them to seek and pay for medical 
treatment even if it was unnecessary. I am happy to report that 
several Members of Congress from the Los Angeles area, 
including some who serve on this committee, agreed with us, and 
with their help we were able to reinstate the previous policy.
    Ultimately NTEU believes the best way for TSOs to achieve a 
safe and healthy work environment is through collective 
bargaining, and we commend this committee for acting favorably 
on H.R. 1881, which would grant those rights. We also call 
again on the administration to issue a directive providing TSOs 
with full collective bargaining rights.
    In addition, we recommend that a number of immediate 
actions be taken, including conducting radiation tests, 
conducting ergonomic testing in baggage areas, and 
investigating new technology that would allow machines to do 
more of the heavy lifting.
    Local health and safety committees need to be instituted 
and empowered. Our TSOs have many good ideas for improving 
health and safety in their workplaces. Programs need to be set 
up whereby TSO-suggested changes can be reviewed and 
implemented locally.
    Thank you again, Mr. Chairman, for the opportunity to 
discuss these important issues here today. I would be happy to 
answer any questions.
    Mr. Lynch. Thank you, Ms. Gilman.
    [The prepared statement of Ms. Gilman follows:]

    [GRAPHIC] [TIFF OMITTED] T4924.035
    
    [GRAPHIC] [TIFF OMITTED] T4924.036
    
    [GRAPHIC] [TIFF OMITTED] T4924.037
    
    [GRAPHIC] [TIFF OMITTED] T4924.038
    
    [GRAPHIC] [TIFF OMITTED] T4924.039
    
    [GRAPHIC] [TIFF OMITTED] T4924.040
    
    [GRAPHIC] [TIFF OMITTED] T4924.041
    
    [GRAPHIC] [TIFF OMITTED] T4924.042
    
    Mr. Lynch. Ms. Rodriguez, you are now welcome to make an 
opening statement for 5 minutes.

                 STATEMENT OF MILAGRO RODRIGUEZ

    Ms. Rodriguez. Mr. Chairman and members of the 
subcommittee, my name is Milagro Rodriguez and I am the 
Occupational Health and Safety Specialist for the American 
Federation of Government Employees which represents more than 
600,000 Federal employees. On behalf of the members of our 
union, I thank you for the opportunity to testify today on 
Federal work force safety and health protections and workers' 
compensation. We hope that the interests of the subcommittee in 
these issues will result in all Federal agencies, but 
especially the Transportation Security Administration, devoting 
more time to preventing injuries and illnesses.
    In general, we believe there is room for improvement in the 
performance of Federal agencies in protecting employees and 
preventing on-the-job injuries and illnesses. Federal employees 
continue to face exposure to chemicals, musculoskeletal 
disorders, work-related stress and radiation.
    Ionizing radiation has been an issue of great concern to 
Transportation Security Officers employed by TSA from the very 
beginning of the agency. TSOs are worried about the potential 
long-term health effects of exposure to radiation emissions 
from the x-ray machines they use to examine the contents of 
checked baggage, as well as carryon baggage.
    Over the years, they have asked TSA for dosimeters, a 
device used to measure employee exposure to radiation, but TSA 
has refused. TSA has held the position that there is harmful 
exposure to radiation from the equipment and that it is not 
required by any applicable standards to issue dosimeters. But 
the fears remain. Instituting a radiation safety and monitoring 
program at TSA would address TSO concerns and allow them to 
focus exclusively on their security duties without being 
preoccupied with their own health and safety.
    In 2003 and 2004, the National Institute for Occupational 
Safety and Health, NIOSH, conducted a study in response to 
various requests from TSA employees, AFGE and TSA headquarters. 
One of its recommendations was that a dosimetry study managed 
by a health or medical physicist be conducted for at least a 
year. It also suggested the monitoring be mandatory.
    NIOSH recommended further study because its findings that 
overall employee exposures were low did not make a definitive 
case for a monitoring program, since wearing a dosimeter for 
the study was voluntary and may not be representative of all 
exposures. To our knowledge, the NIOSH recommendation has never 
been implemented.
    Given the legitimate health concerns of 40,000 TSOs and 
TSA's continued dismissive response, AFGE has drafted and is 
seeking introduction of legislation that would require TSA to 
initiate the study, with NIOSH's consultation, to provide TSOs 
who request them with dosimeters and to report to Congress on 
its findings.
    In its report, NIOSH made other recommendations which we 
strongly support. TSA should provide regular radiation 
training, provide regular training on safe work practices, 
improve equipment maintenance, periodically check equipment 
radiation levels and post those results on the surveyed 
equipment, and improve health and safety communication between 
employees and management. Again, to our knowledge, these 
recommendations have not been implemented.
    On the Workers' Compensation side, we believe that the care 
and compensation available to injured workers is woefully 
inadequate. At a time when employees are the most vulnerable, 
when they need the most help, they often face insurmountable 
hurdles.
    The problems injured workers face often begin at the agency 
where they work. While we see these practices throughout the 
government, we highlight TSA, because nowhere are problems more 
evident. Agencies decide whether a claim is compensable, 
although under the Federal Employees Compensation Act it is the 
Office of Workers' Compensation programs that make that 
decision.
    TSA sometimes refuses to accept claims from employees 
because a supervisor or human resources manager doesn't think 
it is a good claim. Agencies persuade physicians to release 
employees to full duty, sometimes before the doctor feels they 
are ready. TSA tells physicians their patients are at risk of 
losing their job, and in fact some of them do.
    Agencies impose requirements over and above OWCP 
requirements. TSA continually demands employees' entire medical 
file when they request accommodations for their injuries.
    These and other issues we outline in our written testimony 
show that required training of agency personnel is crucial. 
They also show that there is a problem with compliance and 
enforcement of the requirements of FECA.
    We understand that OWCP has no enforcement powers, but 
there has to be a way to hold the agencies accountable. We urge 
the subcommittee to request that OWCP identify ways to better 
ensure the proper administration of FECA at the employing 
agencies.
    The Federal Government should be a model employer in 
providing a safe and healthful workplace. We believe this to be 
a goal we can achieve, and our union stands ready to 
participate in the effort. Identifying hazards early, abating 
them promptly, training and educating workers, and providing 
them with the appropriate protective equipment will help keep 
the Federal work force from becoming injured or sick on the 
job.
    When workers do get injured or sick from their workplace 
exposures, they deserve to receive prompt medical attention, to 
have their claims fairly and quickly adjudicated, and to return 
to work when medically cleared.
    That concludes my statement. I will be happy to answer any 
questions.
    Mr. Lynch. Thank you very much.
    [The prepared statement of Ms. Rodriguez follows:]

    [GRAPHIC] [TIFF OMITTED] T4924.043
    
    [GRAPHIC] [TIFF OMITTED] T4924.044
    
    [GRAPHIC] [TIFF OMITTED] T4924.045
    
    [GRAPHIC] [TIFF OMITTED] T4924.046
    
    [GRAPHIC] [TIFF OMITTED] T4924.047
    
    [GRAPHIC] [TIFF OMITTED] T4924.048
    
    [GRAPHIC] [TIFF OMITTED] T4924.049
    
    [GRAPHIC] [TIFF OMITTED] T4924.050
    
    [GRAPHIC] [TIFF OMITTED] T4924.051
    
    [GRAPHIC] [TIFF OMITTED] T4924.052
    
    [GRAPHIC] [TIFF OMITTED] T4924.053
    
    Mr. Lynch. Thank you all.
    Mr. Adler, you offered some very powerful examples of 
failings within this system, all of them really egregious, and 
I think instructive in a way.
    Do you think this is a systemic problem, or do you have any 
data--you cited in your testimony there are 300 Federal law 
enforcement officers who sustain line-of-duty injuries each 
year. Do we have data on how many of those were resolved, I 
guess, in a satisfactory timeframe and whether these five cases 
that you are laying out, are they outliers? Are we doing OK on 
80 percent of the cases and we got to fix 20, or is it 50-50?
    Mr. Adler. Two different sources for the information. The 
300--and that was just for the physical conflict, in the other 
categories the numbers are much higher--comes from the FBI's 
collection of data. The information I am providing is 
anecdotal.
    We have compiled a spreadsheet and we have been soliciting 
input from our members to provide us with their personal 
stories. So the five I referenced were five egregious examples 
that sort of spanned 9/11 to the present. But we have been 
cataloging it and what we have seen is a pattern.
    In answer to the first part of your question, yes, it is 
systemic. You know, it is a combination. It is the cultural 
impact of sort of functioning on autopilot there, and these are 
very unique, very, very--well, very traumatic, the injuries 
that we are talking about.
    So I think, again, it's systemic. It is somewhat of the 
institutional's inability to assess in a timely manner the 
injury in its connection to the law enforcement duty, because 
it seems to be a pattern of questioning was this within your 
job role to do this?
    And then, second, the pattern which we've seen--and I think 
you hear it from others as well--is the timing of the payments, 
that there is a protracted period of time where, after 
sustaining the injury, the individual member, the officer or 
whoever sustaining injury is paying for their own personal 
medical treatment. That we've seen as a pattern, and I would be 
happy to make that available to you and the committee as well 
in terms of the anecdotal data we've been compiling.
    Mr. Lynch. That's great.
    You know, I'm a former union president, and I've 
represented workers in the past as well. And I know you see 
this as outrageous, and I think the public would, too, in terms 
of here is a bona fide hero on 9/11 going into Tower One, the 
South Tower. Everybody else is running out. And here we have a 
bureaucrat saying, well, did a superior officer order you into 
the building?
    You and I might see that as totally absurd and beside the 
point, but I think what's going on behind this and I think it 
might be reflected in a lot of the testimony here, that these 
folks are trying to shift costs. That's what they're getting 
at. They're trying to shift costs.
    They're saying, well, if the Office of Workers' 
Compensation Programs can somehow disqualify your folks who are 
legitimately injured and push them out of that system, then 
maybe the Federal Employees Health Benefit Program will pick up 
the costs of paying for the health care that employee requires. 
And that's the game that's being played here. They're trying to 
shift costs away from that system, reduce their numbers, and 
force it on to other people.
    And, in some cases, it's just the taxpayer and it's the 
injured worker that is losing out. Because I'm sure when they 
go to FEHBP, the Federal Employee Health Benefit Plan, they're 
saying, well, how did you get hurt? Well, in the line of duty. 
And they're saying, well, my goodness, that's a clear case 
where you should be paid under the Workers' Compensation Act.
    And so they're being sort of like a ping-pong ball. They're 
being denied on one and denied on the other, and that's why 
they're playing this waiting game. And the person that's really 
suffering the worst is the worker and their families, the 
person who did the right thing and was injured in the line of 
duty.
    Mr. Adler. Mr. Chairman, one additional point and even 
unique for law enforcement. We're held under a microscope in 
terms of candor and Giglio/Henthorn issues, which means our 
honesty, our integrity. We go into a hospital banged up in 
emergency, and if we're lucky we can fill out that admittance 
form, and we put down it's job related, and now they come back 
and say, it's not. So now they're going to question our 
integrity and our honesty, which could impact our job, just by 
questioning, not to mention the gap of time.
    And you know what? If they quickly came back and said, 
within 24 hours, claim rejected, OK, well, then we get it in 
writing, we submit it to the insurance company and the hospital 
and say, well, I must have been mistaken. It wasn't my job to 
run into that building. It was determined it was just my 
option, my fetish.
    So at least if they're going to sort of do exactly--and I 
agree with you. That is what's happening in reality. Do it 
immediately. Do it quickly. Just say no, denied. This way we 
know we can still get emergency care and at least have the 
documentation to show, no, I'm not a liar. I didn't make this 
whole thing up. So then I have my agency questioning my 
integrity in filling out a form.
    Mr. Lynch. The other part of this that troubles me is when 
you mentioned those labs, the meth labs--and I live in an inner 
city, and so we see the consequences where buildings have been 
torn down because the process of these meth labs just eats away 
at the building itself. And the illustration that you gave of 
the officer who conducted a hundred or so of these meth lab 
busts--and I guess this question could also apply to 
firefighters in general, Mr. Johnson.
    We've got this greater level of exposure that is--in the 
case of the TSOs, they're somewhat more standardized. You've 
got the radiation that we talked about and I guess the physical 
ergonomic hazards that are there in that job. But the situation 
that you're dealing with, how much training are you seeing in 
terms of your own officers regarding being instructed about 
these different materials and buildings, the different hazards 
that you're encountering on a daily basis?
    Some of these are totally unpredictable, I would imagine, 
and that every day is something different for the people that 
both of you represent. I mean, you've got a big population out 
there in terms of the folks that are running into burning 
buildings and dealing with hazardous chemicals just as the law 
enforcement community is. Are we seeing any training out there 
to sort of update the mindset of our law enforcement and our 
firefighters so that they can better protect themselves?
    Mr. Adler. Yes, more recently. In the case of the Meth Cop 
Project, what happens is that you generate publicity. You get a 
guy like Vince D'Onofrio who is willing to help publicize the 
situation. And now, all of a sudden, there is a buy-in from the 
respective agencies to allocate more funding toward the 
training. So I would say now that situation for those working, 
you know, it's unfortunately lessons hard learned.
    In the case of Tim Chard from, say, 2000 up through 2006, 
maybe that last year he worked on the task force they finally 
got them the personal protection equipment that they should 
have been wearing all along.
    So I would say more recently there is a greater emphasis on 
training and equipment, although, obviously, we're in a bad 
economical situation where the first thing that gets cut in 
every agency is training. So there's greater awareness but 
probably less funding; and that's, unfortunately, the reality 
we have to live with.
    Mr. Lynch. Mr. Johnson, what about our firefighters? What 
are they dealing with in terms of the training aspect of this 
so they can be better prepared for these different situations?
    Mr. Johnson. Well, I think, for the most part, the training 
in most cases is adequate. In 2004, OPM included a hazardous 
material technician classification and a firefighter 
classification standard, and a lot of agencies adopted that and 
trained--if they weren't already trained their firefighters as 
hazardous materials technicians. So from the training 
perspective, I think, obviously, more training is always 
better, but I think it's probably adequate.
    The problem I think that we see, at least at some 
locations, is a lot of the situations that the firefighters end 
up dealing with or going into are unknowns because of 
classified work and other types of situations, that basically 
they go into a situation where they have no idea what they're 
getting into, what the material is, until after the fact. So 
it's kind of hard to prepare for some circumstances like that.
    But the attempt is there as far as the training, but that's 
my big concern, is that there's a lot of unknowns and in some 
cases they don't even know they were exposed until far after 
the exposure took place.
    Mr. Lynch. Thank you.
    We asked the previous panel regarding the radiation issues 
at the airport. I'm still getting questions.
    I think AFGE's representative at Logan Airport, A.J. 
Castillo, stopped me. I fly in and out of there a couple of 
times a week. Treasury employees have also approached me on 
this issue. Because you're representing folks in various 
airports as well. How do you think we can better bring those 
assurances to the employees and to their families that we don't 
have a--you know, we don't have a situation where, because of 
lack of testing, there's some exposure at some level in some of 
these airports?
    I would think that the greater assurances we can give to 
the employee who is standing next to that machine every single 
day 6 or 8 hours, the greater protection we can provide for 
them, the protection will be there for the passenger who is 
just going to walk through every so often, maybe a couple times 
a week. I think it's a very positive safety measure in terms of 
reviewing this equipment on a regular basis.
    And I just want to know from your standpoint whether or not 
TSA is providing the proper level of oversight of these new 
systems. The testing, is it going on on a regular basis? Is 
there some type of pilot program that we could use, say, at the 
major airports that have heavy use of these scanners, the 
radiation scanners? And is there a way that we can help you get 
those dosimeters on the employees so that they can have that 
reassurance? Ms. Gilman.
    Ms. Gilman. I think there is. I think that whether or not 
the testing is going on, we are unaware of it if it is, and 
that's a big underlying problem at TSA. There is no 
communication between the employees and the agency. There is a 
communication problem throughout the agency I believe as well.
    I was surprised to hear the witness from TSA earlier say 
that she was unaware of FECA problems. I know NTEU has met with 
Acting Director Rossides in a meeting where there must have 
been 10 or 12 senior TSA officials, including DHS CHCO, human 
resources people, everybody. And we presented them with paper 
and examples of FECA problems where employees were trying to 
file claims and were being discouraged.
    So for the head of OSHA to say she had never heard of 
that--first of all, it's not her job but she had also never 
heard of it, that is I think an indication of a very systemic 
problem at TSA. And the communication with the employees is 
probably the worst example of that.
    So one of the things that we were suggesting was health and 
safety committees where TSA has to talk to the employees. If 
they are doing testing, the employees are not aware of it.
    The example that you mentioned earlier, comparing the--
prohibiting employees from wearing their dosimeters to 
prohibiting them from wearing masks during the swine flu 
outbreak is exactly on point. If the employees had information 
that the testing that they claim is going on and everything is 
safe, they wouldn't feel that they needed to do this on their 
own. But that communication is not there, and we have no 
evidence that the testing is there to show that the machines 
are safe.
    Mr. Lynch. Ms. Rodriguez.
    Ms. Rodriguez. We also have an issue with the 
communications problem at TSA. Basically, our issue is the lack 
of communication telling employees what is going on. We've 
heard today about some efforts that are ongoing at TSA. And as 
the other witness mentioned, there is no information to 
employees about what is happening. So that certainly is problem 
No. 1.
    In addition to that, training and education is sorely 
lacking. If there are programs that they have, they do not make 
it to the airports. If there are health and safety committees 
that they set up where participation is limited, we don't know 
when meetings are. We don't know how to get people on those 
committees. That kind of information needs to get out to 
employees.
    One of the things that we have been pushing for is the 
actual dosimetry program. We think that taking that into 
account would be very important.
    Paying attention to employees' concerns. This agency has 
been very dismissive. If I raise an issue, I would like to know 
that it's being heard. I would like to know that it's being 
addressed. If it's being addressed and I have no knowledge of 
it, then my fears are still there.
    Risk communication in this field is critical. If people 
don't know what they're being exposed to--if people don't know 
that it's OK, that you might have an exposure but that it's not 
at the point where it will harm you, then that is again 
something that people need to know.
    Ms. Gilman. If I could add one more thing to that.
    Mr. Lynch. Sure. Please.
    Ms. Gilman. But there is no transparency. One example of 
that, in preparing for this testimony we went on the TSA Web 
site, and they have some information on health and safety, and 
they referenced the TSA health and safety manual, and we tried 
to download it and couldn't. So we called TSA and said, we'd 
like to get a copy; and they said, no, it's a security 
information. It's not available to you or anybody other than 
TSA employees.
    Mr. Lynch. Wow. So it's public. It's on their Web site. But 
you can't----
    Ms. Gilman. You can't get to it on their public Web site. 
Apparently, employees are allowed on their intranet part of the 
Web site to access the manual, but they are not allowed to 
share it with anybody who is not a TSA employee. It's not 
available to the union representatives or anybody else.
    Mr. Lynch. OK, we will look into that.
    I feel like I'm the union rep for the TSA employees because 
they don't have one. So every time I go to the baggage claim 
there or go through the screener, they sort of, you know, give 
me an earful about what's wrong. So I know more about this than 
I want to.
    But they were telling me that, in handling the baggage, the 
baggage now gets x-rayed on a conveyor and there's a little 
gantry that comes down. And when there's a baggage jam, they 
actually have to reach in there and dislodge the bags and stop 
the jam. And that's a gap in the system and they get exposure 
when they do that.
    When we brought it up with the earlier panel, I believe--I 
forget which witness addressed that, well, the response was 
that they're working on equipment that might address that 
issue. Are you aware of any equipment that they're providing 
that would----
    Ms. Rodriguez. Not to our knowledge, no. And there were 
practices that NIOSH referred to are still ongoing, and every 
day employees get told by their supervisors to reach in there 
and get the baggage out. So things that tend to slow down the 
line and keep passengers from getting through are problems, and 
so people have to do what they have to do, what they're told. 
And we get calls from employees raising concerns because 
they've spoken up and have said, ``That is not safe. I will not 
do it.'' And so they're looking to us to represent them in 
backing them up and standing up for their health and safety 
rights.
    Mr. Lynch. Right. We had to deal with TSA during the swine 
flu epidemic, and that was one of the most frustrating 
bureaucratic messes that I've had to deal with. They would not 
allow hand cleaner or Purell or anything like that to the TSOs 
who were actually patting down passengers. They're having 
physical contact with 400, 500 passengers in a shift; and they 
weren't allowed to have masks. And now they're going home to 
their families after all that exposure.
    It just didn't seem--if we're interested in reducing 
contamination, it just highlighted a lot of flaws. And we kept 
getting these pronouncements out of the TSA that did not make 
sense.
    Let me ask you. On the equipment part of this, how are the 
different agencies dealing with self-contained breathing 
apparatus or any equipment that might help either law 
enforcement or firefighters dealing with these new and 
different exposures that we're seeing? Have there been any 
initiatives out there? I know we do fire grants and police 
grants on occasion, but they seem fairly standard, the ones 
that I see going out. But are there technologies and is there 
equipment that's being distributed or deployed that is helping 
you fight this?
    Mr. Adler. I think so. I think we've come a long way.
    The Federal Law Enforcement Training Center, where the 
majority of Federal law enforcement officers train, have a 
couple of programs that are geared toward how to use this 
equipment, how to respond to critical incidents or be in a 
situation where it happens unexpectedly. But I think the 
knowledge has certainly increased. I think the equipment is 
there. It's made more available.
    Again, unfortunately, the reality we're contending with is 
in the funding cuts, the availability of the equipment. But I 
think the specialty units that have greatest risk of exposure 
to contaminants and toxins do have access now to the personal 
protective equipment and the training, again based on the 
availability by FLTC. But the trick is each individual agency 
has to have the money to send their officers, their agents, 
inspectors, and deputies to FLTC for the training, and that 
comes with a price tag. So that's really the realistic hurdle 
we're up against.
    Mr. Lynch. Can you use the police grants for training? Is 
that a way? No?
    I know at the State level, when my local departments get 
that, they can use it for hazmat training and things like that.
    Mr. Adler. Yeah. COPS is a great program run out from DOJ, 
but the Federal components don't receive the funding benefits 
from that.
    Mr. Lynch. I see.
    Mr. Johnson. It's the same on the fire side. We can't 
benefit from any of the Federal grants in the Federal fire 
sector. So we're at the agency's mercy, I'll say, more or less, 
as far as funding. The individual agencies have to fund all the 
equipment, the hazmat equipment down to the fire engines, the 
SCBAs, everything comes through the agency's budget.
    And, unfortunately, what we see is the budgets get cut like 
every other program. You put in for a certain amount, you don't 
get that, and so you have to make reductions or you don't 
replace equipment as often as you should. And because of that--
--
    I mean, in the Federal sector we do have some areas, some 
agencies that don't replace fire equipment as often as they 
should. They're outside the standards, the industry standards, 
for replacement for fire engines and other equipment SCBA. And 
so we try to stay on them as far as their replacement of those 
important items, but, unfortunately, it's budget driven, and we 
have a tough time in some cases getting some of that stuff 
replaced.
    Mr. Lynch. Let me ask, you know, the system that I'm most 
familiar with is the Massachusetts system. And when you have a 
situation where an employee is hurt at work and they don't--the 
agency or the employer doesn't acknowledge it or admit it, 
there's still an opportunity for the employee to try to get 
health care and then later on so that the employee isn't just 
left without health care. And that's the limbo that your folks 
are in, that they've got to pick up the tab. You've got, you 
know, other supervisors that are offering to put the cost of 
medical care on their credit cards. That's ridiculous.
    How do we resolve that so the employees don't end up in 
limbo where, you know, if OWCP denies it or just doesn't do 
anything but leaves them out there, and yet in this case the 
Federal Employees Health Benefit Plan thinks that the facts 
would indicate that person would be covered under workers' 
compensation, you've got a person who's stuck. And you're all 
describing that situation.
    How do we resolve that? Is there a quick appeal process or 
is there something legislatively that might be done to make 
sure that, look, that person needs to get health care? Is there 
a way to sort of short-circuit the stand-off between the two 
parties so that at least that employee gets cared for?
    Mr. Adler. We've made the recommendation to the Division of 
Federal Employee Compensation. In fact, we have a meeting again 
this Friday. And what we've previously recommended to expedite 
the time from when the officer sustains injury is a couple of 
things.
    First, they can assign--when it's a law enforcement or a 
public safety injury that's traumatic, if they assign a nurse 
immediately to the case, the percentage of success tends to 
significantly increase both in terms of satisfaction from our 
member and in terms of how they administer the process. Because 
what you have is a person with medical expertise who can 
quickly assess the situation and make a timely decision or help 
the administrator make a timely decision.
    Second, we recommended that they have regional liaisons or 
agency representatives. So if we have a situation where one of 
our guys is in the hospital and they're getting no response or 
it could be an extended weekend or whatever it is there's no 
response from OWCP and we have that protracted period of time, 
if we have people, if we have that 911 option to get somebody 
in play who will have immediate access to the right person in 
OWCP and FEC, we can accelerate the process. It's something 
that would, again, fall under certain situations where the 
injuries are severe and catastrophic in nature, so that we 
wouldn't have this protracted.
    So what we were told, unfortunately, during our first 
meeting was, well, we haven't gotten any complaints. As far as 
we know, everything is working out fine. So, you know, with 
head buried in sand, the world is a beautiful place.
    So we're now coming back to them with a spreadsheet of all 
these individual cases to try and illustrate to them, hey, 
there is a real pattern here. Real people who take risks every 
day are suffering, and you're contenting yourself into this 
delusion that things are just hunky dory.
    Mr. Lynch. Well, that's the most troubling aspect here. 
We're not talking about--you know, look, I understand from the 
employer's standpoint or from the agency's standpoint that they 
want to root out any fraud or false claims. But here, you 
have--in the cases that you've described, there's injury. And 
no one is conceding that there's injury. They're just arguing 
about liability, really. And so while they're arguing, you 
know, your folks are out there without care or--either that or 
they're paying out of their own pocket for something that 
happened on the job and, you know, maybe with some delay in 
getting personal care while they're trying to figure out how to 
get it paid for.
    The other situation that I'm concerned about with the TSA 
is turnover rate. I've seen a lot of people go through the 
cycle where they go to work for TSA and because of the 
conditions there and unfavorable work environment they're 
leaving. And so we've got--we don't really have a good career 
environment there where people can come in and advance 
themselves and have decent working conditions and stay. And 
we're not developing enough long-time professional security 
officers and personnel in our airports where we're spinning 
these people through and they're coming in and working for a 
while and then they're leaving.
    And I'm just wondering, you know, what can we do to 
professionalize this force here where we're relying on them for 
a very important role in our security framework and how can we 
better ensure that these employees stay and view their 
responsibilities with the importance that we give it as 
passengers and as a Nation?
    Part of our national security is right there at the 
airports and at border crossings. And, you know, if we continue 
to treat this as a low priority--let's put it that way--we're 
going to, I think, miss an opportunity. And I think when we see 
breaches in our security, maybe we will go back and look at it. 
But I would rather not get to that point. How do you think we 
can improve this?
    Ms. Gilman. Well, I think TSA continues to have the highest 
turnover rate in the Federal Government and the lowest morale.
    When TSA was created and they moved those screeners from 
working for the private sector to being Federal employees, 
there was a big fight on Capitol Hill on whether or not they 
were going to do that, but they were given exceptions to just 
about everything else that applies to the rest of the Federal 
work force, and I think that is a reason that they have 
different statistics than the Federal work force.
    They don't--they are not on the same pay system. The 
employees don't understand the pay system. It's extremely low. 
They are very--paid very, very low wages compared to other 
Federal employees. They don't get appropriate training. The 
health and safety issues that we've been discussing today, not 
only is the situation bad, but they don't have a way to try to 
address it.
    I know that our No. 1 thing is that they need a union to be 
able to be there and represent them on those issues, and I do 
think that would go a long way. But all of H.R. 1881, enacting 
that I think would make a really big difference.
    They don't have civil service rights. They have 
whistleblower protection only to the extent that TSA wants to 
give it to them. They don't have it by statute. You know, every 
right that every other Federal employee has, TSA has the 
authority to say we may or may not give that to you. And I 
think that's what makes them different than the rest of the 
Federal work force.
    Mr. Lynch. Ms. Rodriguez.
    Ms. Rodriguez. And in addition to that--and then, of 
course, the big thing being collective bargaining rights. In 
addition to that, standardizing some of the work practices so 
that it doesn't depend on who you work for and what airport 
you're at, what kind of things apply to you, so that everybody 
one knows what standards they have to meet so that everyone 
knows how they get to the next step.
    With respect to also the number of people who are leaving 
TSA, many of those are injured employees. Many of those are 
people who are finally at the point where they have become so 
injured they can no longer do their jobs and they're not being 
accommodated by TSA or people who are at the point where they 
are just exasperated with the process both at TSA and with OCWP 
and feel they have to find employment elsewhere. And we are 
losing that knowledge and that experience.
    Mr. Lynch. As with the earlier panel, I asked them if there 
were any questions I hadn't asked or any point you'd like to 
amplify or elaborate on that might help the committee in its 
work. Mr. Adler.
    Mr. Adler. No. Thank you, Chairman.
    Mr. Lynch. Mr. Johnson.
    Mr. Johnson. Nothing else at this time. No. Thank you.
    Mr. Lynch. Ms. Gilman.
    Ms. Gilman. No. Thank you.
    Ms. Rodriguez. I would add an issue with retaliation and 
fear of actual reporting. We have seen this with our TSOs. 
Earlier, the witness for TSA mentioned that they have a system 
of reporting health and safety concerns. People are afraid to 
use that, because often those reports turn into a blame-the-
worker kind of process. And so looking for what the worker did 
wrong versus how do we fix this process, how do we make this 
work better. And I think that is something that is affecting 
TSOs tremendously.
    I also believe that may be some of the reasons why some of 
the numbers are lowered. People are intimidated. And they don't 
have to be physically intimidated, they don't have to be 
verbally intimidated. Knowing what happens to people when 
they're injured at TSA can be a deterrent in itself, and people 
don't want to go through the process.
    Mr. Lynch. I do want to acknowledge that Mr. Moran of 
Virginia, Mr. Wolf, Mr. Connolly, we marked up a bill earlier 
today in our markup regarding training of Federal managers and 
Federal supervisors, and that might be a way in, by requiring a 
certain curriculum in terms of how these managers are trained 
and in a way that provides the basic protections and dignity 
that these workers deserve.
    I realize we had most of this hearing after votes and other 
Members are gone, but I'm going to leave the record open for 5 
calendar days--5 legislative days, excuse me, to allow Members 
to ask any questions of you.
    Mr. Adler, we talked about some data that might be 
available at some point.
    Mr. Adler. Yes, sir. I'll make that available to you ASAP.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T4924.054
    
    [GRAPHIC] [TIFF OMITTED] T4924.055
    
    [GRAPHIC] [TIFF OMITTED] T4924.056
    
    [GRAPHIC] [TIFF OMITTED] T4924.057
    
    Mr. Lynch. I want to thank you all for helping the 
committee with its work, and I wish you have a good day. Thank 
you.
    This hearing is now adjourned.
    [Whereupon, at 6:05 p.m., the subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
